P-1908
Rev. 03/20

CREDIT CARD ACCOUNT AGREEMENT

Cash Rewards Credit Card

Table of Contents
SUMMARY OF KEY TERMS
AGREEMENT TERMS
Costs
Overdraft Protection
Payments
Card Account
Agreement (CA)
SUMMARY OF
KEY TERMS

Your liability f
do/what happe

What other
important terms
exist in the CA?

Credit Limits,
spending limits
Individual Liab
jointly liable fo
Termination –
Your Credit at
Sharing of Info
information/how
to others; refer
Arbitration – th
resolve claims;
as the agreed u
Billing Dispute
charges/are no
from merchant
Defined Terms

Interest Charges
and Transaction
Fees in General:

SunTrust calcu
Daily Balance (
SunTrust also u
Interest Charg
is added to the
applied each su
Balance and ne
disclosure of A
Rate), Minimum
Other Charges

Interest Rates
and Interest
Charges based
upon Credit
Inquiries:

Your eligibility
Rates, and oth
credit worthin
have made any
inquiries abou
about: (1) whe
Account and if
to Your Card A
Account, or (3
and other perm

Cost on
Purchases:
SunTrust
will charge
the Interest
Charge (unless
inapplicable
because of the
Grace Period) on
Your Purchases
from the
transaction date.

•Any Purchase
Statement wi
month’s State
•The cost for P
it applies) is t
multiplied by
and (2) the ap
•You will have
are reflected
if You pay You
Those new Pu
Charge during
Statement if
the Grace Per

Costs on Cash
Advances:
SunTrust will
charge the Interest
Charge on Your
Cash Advances
from the date they
are posted to Your
Account.

The costs for C
computed at th
Balance (for Ca
transaction fee
Daily Balance o
number of days
DPR. Cash Adv

Cost on Overdraft
Advances:
SunTrust will charge
the Interest Charge
on Your Overdraft
Advances from
the date they are
posted to Your
Account.

The cost on Ov
is the Average
multiplied by (
and (2) the app
Regulations for
its usual depos
and as part of Y
Advances do n

Amendment (Changes) and Assignment
Additional Information
Arbitration Provision
Your Billing Rights
Definitions

Each bolded word or phrase is defined in the definitions
section at the end of this Agreement. A copy of the
Agreement may be found online at www.suntrust.com/
personal-banking/credit-cards. The most current version
of this Card Account Agreement shall be published online.
The online version of the agreement supersedes any prior
written version.

When are You
bound by the
CA Terms?

Your Card Account Agreement with SunTrust starts and
You agree to the terms when (1) You accept and/or sign the
Card or (2) You or an Authorized User use(s) the Card or
Account, thus obtaining Credit from SunTrust.

What types of
transactions
might You make
with the Card/
Account and
how are these
transactions
itemized on Your
bill each month?

• You may use Your Card/Account to make legal Purchases,
Cash Advances, Overdraft Advances and Balance
Transfers. You are responsible for transactions that You,
other Cardholders, and Authorized Users make, whether
the transactions are legal or not.
• Each type of transaction has different associated costs
and terms; each transaction type and associated costs are
grouped together and detailed in Your monthly Statement
(Card Account bill) by transaction type. The combined
outstanding amount of each transaction type is Your New
Balance due on Your Account each month (Billing Period).
You must pay all Interest Charges, fees, and Other
Charges properly charged to Your Account.

What You Pay,
when, how, and
what happens if
You pay late?

• SunTrust will send You a monthly Statement (bill). You
agree to pay all Authorized Charges on the Statement.
You have the option of paying in full the New Balance
shown on each Statement or paying in installments that
at least equal the amount of the Minimum Payment
shown on Your Statement. In either case, the payment
Due Date will be at least 25 days after the Closing Date
of Your Statement.
• The Minimum Payment will include any amount past due
or over Your Credit Limit plus the greater of (1) $25.00,
(2) 2% of the New Balance, or (3) 1% of the New Balance
plus current Interest Charges and Other Charges. If the
New Balance is less than $25.00, the Minimum Payment
will be the New Balance. If You pay more than the
Minimum Payment, You still must make the Minimum
Payment on subsequent Statements until You have fully
paid what You owe. You must pay in U.S. dollars, without
restrictive terms, and in accordance with the Standard
Payment Instructions.
• If You do not pay at least the Minimum Payment by the
Due Date, SunTrust will charge a Late Payment fee, unless
Your Account is exempt from Late Payment fees. If You
make a Late Payment, You will be in Default and You may
be subject to rate increases. If You are in Default for any
reason, SunTrust can require that the entire outstanding
full Balance on Your Account be immediately paid.

How will
SunTrust apply
Your payments?

What other
important terms
exist in the CA?

• You agree that the Minimum Payments on Your Account
will be applied in the order SunTrust selects.
• SunTrust may allocate Your Minimum Payments to
Balances starting with the lowest APR (Annual Percentage
Rate). Payments in excess of the Minimum Payment will
generally be applied first to Balances with the highest
APR and any remaining portion to the other Balances in
descending order based on their APRs, unless SunTrust
is required by applicable law to use a different payment
application method in connection with a deferred interest
or similar program.
• Payments are normally applied to restore Your available
Credit (the amount of Your unused Credit Limit). There
may be a delay in restoring Your available Credit until
SunTrust determines whether a payment is likely to be
returned for insufficient funds or for some other reason.

P-1908
Rev. 03/20

What other
important terms
exist in the CA?

Your liability for unauthorized use of the Card – what to
do/what happens if Your Card is stolen.

What other
important terms
exist in the CA?

Credit Limits, Authorization, and Convenience Checks –
spending limits/transaction authorization.
Individual Liability – each Cardholder is individually and
jointly liable for all Authorized Charges.
Termination – You or SunTrust can terminate or suspend
Your Credit at any time with/without cause.
Sharing of Information – how SunTrust safeguards your
information/how-when SunTrust may disclose Your information
to others; refers to SunTrust’s Privacy Statement.
Arbitration – the way in which You and SunTrust agree to
resolve claims; You have the right to opt out of arbitration
as the agreed upon claims resolution method.
Billing Dispute Rights – details Your rights if You dispute
charges/are not satisfied with good/services You procure
from merchants using Your Card/Account.
Defined Terms – defines all essential terms used in the CA.

dment (Changes) and Assignment
onal Information
ation Provision
Billing Rights
tions

rase is defined in the definitions
s Agreement. A copy of the
d online at www.suntrust.com/
t-cards. The most current version
eement shall be published online.
e agreement supersedes any prior

ement with SunTrust starts and
when (1) You accept and/or sign the
thorized User use(s) the Card or
Credit from SunTrust.

d/Account to make legal Purchases,
raft Advances and Balance
ponsible for transactions that You,
d Authorized Users make, whether
gal or not.
n has different associated costs
ction type and associated costs are
detailed in Your monthly Statement
transaction type. The combined
each transaction type is Your New
ccount each month (Billing Period).
est Charges, fees, and Other
ged to Your Account.

u a monthly Statement (bill). You
rized Charges on the Statement.
paying in full the New Balance
ent or paying in installments that
unt of the Minimum Payment
ent. In either case, the payment
ast 25 days after the Closing Date

t will include any amount past due
mit plus the greater of (1) $25.00,
nce, or (3) 1% of the New Balance
harges and Other Charges. If the
an $25.00, the Minimum Payment
ce. If You pay more than the
u still must make the Minimum
t Statements until You have fully
u must pay in U.S. dollars, without
n accordance with the Standard

ast the Minimum Payment by the
ll charge a Late Payment fee, unless
pt from Late Payment fees. If You
You will be in Default and You may
eases. If You are in Default for any
equire that the entire outstanding
ccount be immediately paid.

imum Payments on Your Account
rder SunTrust selects.
Your Minimum Payments to
the lowest APR (Annual Percentage
ess of the Minimum Payment will
st to Balances with the highest
portion to the other Balances in
d on their APRs, unless SunTrust
le law to use a different payment
connection with a deferred interest

applied to restore Your available
Your unused Credit Limit). There
oring Your available Credit until
hether a payment is likely to be
t funds or for some other reason.

Interest Charges
and Transaction
Fees in General:

SunTrust calculates Interest Charges using the Average
Daily Balance (including new transactions) method.
SunTrust also uses compounded interest in calculating
Interest Charges. Compounded interest means that interest
is added to the principal that You owe and interest then
applied each successive Billing Period on the outstanding
Balance and new charges. [See the Card Mailer for
disclosure of APRs, corresponding DPRs (Daily Periodic
Rate), Minimum Interest Charge, transaction fees, and
Other Charges.]

Interest Rates
and Interest
Charges based
upon Credit
Inquiries:

Your eligibility for Credit, initial and on-going Interest
Rates, and other CA terms may vary based upon Your
credit worthiness. You authorize SunTrust to make or
have made any credit, employment, and investigative
inquiries about You that SunTrust deems appropriate
about: (1) whether SunTrust will provide You with a Card
Account and if so at what rates/terms, (2) modifications
to Your Card Account rates/terms while You maintain the
Account, or (3) collection of Credit under Your Account
and other permissible purposes as the law allows.

Cost on
Purchases:
SunTrust
will charge
the Interest
Charge (unless
inapplicable
because of the
Grace Period) on
Your Purchases
from the
transaction date.

• Any Purchase Balance not paid by the Due Date on the
Statement will incur an Interest Charge on the following
month’s Statement.
• The cost for Purchases (DPR Interest Charge, when
it applies) is the Average Daily Balance on Purchases
multiplied by (1) the number of days in the Billing Period
and (2) the applicable DPR.
• You will have a Grace Period on any new Purchases that
are reflected for the first time on Your current Statement
if You pay Your New Balance on time each Billing Period.
Those new Purchases will not be subject to an Interest
Charge during the Billing Period reflected in the current
Statement if You satisfy the conditions for applicability of
the Grace Period.

Costs on Cash
Advances:
SunTrust will
charge the Interest
Charge on Your
Cash Advances
from the date they
are posted to Your
Account.

The costs for Cash Advances consist of (1) interest
computed at the applicable DPR on the Average Daily
Balance (for Cash Advances) and (2) Cash Advance
transaction fees. The DPR Interest Charge is the Average
Daily Balance on Cash Advances multiplied by (1) the
number of days in the Billing Period and (2) the applicable
DPR. Cash Advances do not have a Grace Period.

Cost on Overdraft
Advances:
SunTrust will charge
the Interest Charge
on Your Overdraft
Advances from
the date they are
posted to Your
Account.

The cost on Overdraft Advances (DPR Interest Charge)
is the Average Daily Balance on Overdraft Advances
multiplied by (1) the number of days in the Billing Period
and (2) the applicable DPR. In accordance with its Rules and
Regulations for Deposit Accounts, SunTrust will assess You
its usual deposit account fee for such service, separately,
and as part of Your deposit Account fees. Overdraft
Advances do not have a Grace Period.

Costs on Balance • The costs for B
computed at t
Transfers:
Balance (for B
When SunTrust
transaction fe
provides You a
Balance Transfer
• The DPR Inter
check or Balance
Balance Trans
Transfer request
the Billing Per
form or when You • SunTrust may
request a Balance
Transfer Prom
Transfer, SunTrust
Transfer Inter
will charge the
Card Mailer te
Interest Charge
fees will be di
on Your Balance
Offer. Unless
Transfer from the
Transfers do n
date it is posted
to Your Account.

Foreign Currency • All Purchase a
a foreign curre
Exchange on
the regulation
Non-US
exchange) of t
Transactions:
Your Account
• If Your Accoun
will be shown
• Conversion ma
transaction or
Statement, w
a Credit trans
different than
rate of the Cr
original transa
Other Charges:

Late Payment
Late Payment
the Minimum P
Statement, Su
Purchase Balan
as of the Closin
Annual Fee. If
shown on the C
fee to Your Pur
Returned Paym
from Returned
Payment fee to
that You make
or (2) any Balan
Balance check
imposed even if
paid by Your fin
Stop Payment F
payment fee to
to stop paymen
Account or on a
Documentation
Statements, sal
request copies o
SunTrust will ad
for each additio
SunTrust will no
connection with

Minimum Interest If You incur Int
Charges:
minimum Intere
minimum Intere
Charge” on You
Changes

SunTrust can ch
in accordance w
possible change

Type of change

What may trigge
change

Interest Rate
increase on new
charges

In the first
year, a
Promotional
Rate ends
or the Index
Rate changes;
after that, any
reason

Interest Rate
increase on
existing Balances

Promotional
period ends,
Index Rate
changes, or
Your Account
is in a workout
arrangement

orized use of the Card – what to
Card is stolen.

tion, and Convenience Checks –
on authorization.
h Cardholder is individually and
horized Charges.
nTrust can terminate or suspend
with/without cause.
how SunTrust safeguards your
nTrust may disclose Your information
ust’s Privacy Statement.
which You and SunTrust agree to
the right to opt out of arbitration
ms resolution method.
details Your rights if You dispute
with good/services You procure
ur Card/Account.
all essential terms used in the CA.

rest Charges using the Average
new transactions) method.
ounded interest in calculating
ounded interest means that interest
that You owe and interest then
Billing Period on the outstanding
s. [See the Card Mailer for
esponding DPRs (Daily Periodic
t Charge, transaction fees, and

it, initial and on-going Interest
ms may vary based upon Your
authorize SunTrust to make or
mployment, and investigative
t SunTrust deems appropriate
Trust will provide You with a Card
at rates/terms, (2) modifications
ates/terms while You maintain the
on of Credit under Your Account
urposes as the law allows.

Costs on Balance • The costs for Balance Transfers consist of (1) interest
computed at the applicable DPR on the Average Daily
Transfers:
Balance (for Balance Transfers) and (2) Balance Transfer
When SunTrust
transaction fees.
provides You a
Balance Transfer
• The DPR Interest Charge is the Average Daily Balance on
check or Balance
Balance Transfers multiplied by (1) the number of days in
Transfer request
the Billing Period and (2) the applicable DPR.
form or when You • SunTrust may from time to time offer You Balance
request a Balance
Transfer Promotional Offers with different Balance
Transfer, SunTrust
Transfer Interest Charges and transaction fees than the
will charge the
Card Mailer terms. Those different Interest Charges and
Interest Charge
fees will be disclosed in the Balance Transfer Promotional
on Your Balance
Offer. Unless SunTrust informs You otherwise, Balance
Transfer from the
Transfers do not have a Grace Period.
date it is posted
to Your Account.
Foreign Currency • All Purchase and Cash Advance transactions processed in
a foreign currency will be converted to U.S. dollars under
Exchange on
the regulations (which affect rate and actual date of the
Non-US
exchange) of the Card Association before being charged to
Transactions:
Your Account.
• If Your Account has a foreign currency transaction fee, it
will be shown on the Card Mailer.
• Conversion may occur on a date other than the date of the
transaction or the date the transaction is posted to Your
Statement, which may affect the conversion rate used. If
a Credit transaction is processed and has a processing date
different than the original transaction, then the exchange
rate of the Credit can be greater/less than that of the
original transaction.
Other Charges:

not paid by the Due Date on the
n Interest Charge on the following

(DPR Interest Charge, when
ge Daily Balance on Purchases
umber of days in the Billing Period
DPR.
Period on any new Purchases that
st time on Your current Statement
alance on time each Billing Period.
will not be subject to an Interest
ng Period reflected in the current
y the conditions for applicability of

nces consist of (1) interest
ble DPR on the Average Daily
ces) and (2) Cash Advance
R Interest Charge is the Average
dvances multiplied by (1) the
lling Period and (2) the applicable
not have a Grace Period.

dvances (DPR Interest Charge)
ance on Overdraft Advances
mber of days in the Billing Period
PR. In accordance with its Rules and
ccounts, SunTrust will assess You
fee for such service, separately,
sit Account fees. Overdraft
Grace Period.

Late Payment Fee. Unless Your Account is exempt from
Late Payment fees, if SunTrust has not received at least
the Minimum Payment by its Due Date as shown on a
Statement, SunTrust will add a Late Payment fee to Your
Purchase Balance based on the New Balance outstanding
as of the Closing Date for the Statement.
Annual Fee. If Your Account has an annual fee, it will be
shown on the Card Mailer, and SunTrust will add the annual
fee to Your Purchase Balance.
Returned Payment Fee. Unless Your Account is exempt
from Returned Payment fees, SunTrust will add a Returned
Payment fee to Your Purchase Balance if (1) a payment
that You make or authorize is returned to SunTrust unpaid;
or (2) any Balance Transfer, Cash Advance, or Promotional
Balance check is dishonored for any reason. This fee may be
imposed even if Your payment is later re-presented to and
paid by Your financial institution.
Stop Payment Fee. SunTrust will add a $39.00 stop
payment fee to Your Purchase Balance if You ask SunTrust
to stop payment on any Convenience Check drawn on Your
Account or on any Balance Transfer request.
Documentation Fee. SunTrust will provide copies of
Statements, sales drafts, etc., to You upon request. If You
request copies of more than two items during a Billing Period,
SunTrust will add a fee to Your Purchase Balance up to $5.00
for each additional copy unless prohibited by applicable law.
SunTrust will not impose any fee if Your request is made in
connection with written notice of a billing error.

Minimum Interest If You incur Interest Charges in any Billing Period, a
Charges:
minimum Interest Charge will post to Your Account (such
minimum Interest Charge shown as the “Minimum Interest
Charge” on Your Statement).
Changes

SunTrust can change some of Your rates and other terms
in accordance with applicable law. This table shows some
possible changes.

Type of change

What may trigger Advance notice of change
change

Interest Rate
increase on new
charges

In the first
year, a
Promotional
Rate ends
or the Index
Rate changes;
after that, any
reason

Promotional Rate ends or Index Rate
changes, no notice; otherwise, 45 days

Interest Rate
increase on
existing Balances

Promotional
period ends,
Index Rate
changes, or
Your Account
is in a workout
arrangement

No notice requirement or per terms of the
workout arrangement

Increase or
decrease to
Credit Limit

Any reason

Some fees and
other terms

Can change for
any reason

Card Account
Agreement (CA)
SUMMARY OF
KEY TERMS

Each bolded wo
section at the e
Agreement may
personal-banki

Your Card Account Agreement with
when You accept and/or sign the Car
Card or Account, thus obtaining cred

Costs
You may use Your Card and Account
Overdraft Advances and Balance Tra
own Balance. Each type of Balance m
Interest Charges.
You agree to pay SunTrust for all cre
Interest Charges, Other Charges and
to Your Account. You agree to use Yo
not SunTrust’s responsibility to make
transactions, and You will remain res
legal or not. SunTrust may decline au
transaction. SunTrust will not be liab
Interest Charges
and Transaction
Fees

The conditions u
transaction fees
is a Purchase, C
Transfer, or Pro
SunTrust calculates Interest Charges
new transactions) method. SunTrust
Interest Charges. Compounded inter
principal that You owe and interest t
the outstanding Balance and new cha
Interest Charges that apply on Your

Interest Charge
Cost: Interest C
for Purchases
Purchases x no.
Any Purchase Balance not paid by the
Interest Charge on the following mon
(DPR Interest Charge, when it applies
multiplied by (1) the number of days in
You will have a Grace Period on any
time on Your current Statement if Yo
Period. Those new Purchases will no
Billing Period reflected in the curren
applicability of the Grace Period.
SunTrust will charge the Interest Ch
Grace Period) on Your Purchases fro
The DPR for Purchases (that are subj
vary each month based on changes in
whether the Account is subject to a

Costs: Interest
Interest Charge
Advances x no.
and Transaction
Advance transa
Fees for Cash
Advances
The costs for Cash Advances consist
DPR on the Average Daily Balance (f
transaction fees.
The DPR Interest Charge is the Avera
multiplied by (1) the number of days
DPR. The Cash Advance transaction f
The DPR for Cash Advances may or m
in the Index Rate. The Card Mailer d
Variable or a Non-variable APR.
SunTrust will charge the Interest Ch
they are posted to Your Account. Ca

Cost: Interest C
Interest Charge
Advances x no.
for Overdraft
Advances
The cost on Overdraft Advances (DP
Balance on Overdraft Advances mult
Period and (2) the applicable DPR. In
Deposit Accounts, SunTrust will asses
service, separately, and as part of Yo
The DPR for Overdraft Advances may
changes in the Index Rate. The Card
subject to a Variable or a Non-variab
SunTrust will charge the Interest Cha
they are posted to Your Account. Ove

ransfers consist of (1) interest
able DPR on the Average Daily
ansfers) and (2) Balance Transfer

e is the Average Daily Balance on
iplied by (1) the number of days in
2) the applicable DPR.
e to time offer You Balance
Offers with different Balance
ges and transaction fees than the
se different Interest Charges and
the Balance Transfer Promotional
informs You otherwise, Balance
Grace Period.

Advance transactions processed in
be converted to U.S. dollars under
affect rate and actual date of the
Association before being charged to

oreign currency transaction fee, it
rd Mailer.
n a date other than the date of the
the transaction is posted to Your
affect the conversion rate used. If
processed and has a processing date
nal transaction, then the exchange
e greater/less than that of the

ss Your Account is exempt from
unTrust has not received at least
by its Due Date as shown on a
ll add a Late Payment fee to Your
on the New Balance outstanding
r the Statement.
unt has an annual fee, it will be
r, and SunTrust will add the annual
ance.
Unless Your Account is exempt
fees, SunTrust will add a Returned
chase Balance if (1) a payment
ze is returned to SunTrust unpaid;
er, Cash Advance, or Promotional
red for any reason. This fee may be
ment is later re-presented to and
titution.
rust will add a $39.00 stop
chase Balance if You ask SunTrust
Convenience Check drawn on Your
ce Transfer request.
Trust will provide copies of
etc., to You upon request. If You
an two items during a Billing Period,
Your Purchase Balance up to $5.00
nless prohibited by applicable law.
any fee if Your request is made in
otice of a billing error.

rges in any Billing Period, a
e will post to Your Account (such
e shown as the “Minimum Interest
ent).

e of Your rates and other terms
cable law. This table shows some

ce notice of change

tional Rate ends or Index Rate
s, no notice; otherwise, 45 days

ce requirement or per terms of the
t arrangement

Increase or
decrease to
Credit Limit

Any reason

None

Some fees and
other terms

Can change for
any reason

Up to 45 days for certain fees and
Minimum Payment changes

Card Account
Agreement (CA)
SUMMARY OF
KEY TERMS

Each bolded word or phrase is defined in the definitions
section at the end of this Agreement. A copy of the
Agreement may be found online at www.suntrust.com/
personal-banking/credit-cards.

Your Card Account Agreement with SunTrust starts and You agree to these terms
when You accept and/or sign the Card or You or an Authorized User use(s) the
Card or Account, thus obtaining credit from SunTrust.
Costs
You may use Your Card and Account to make Purchases, Cash Advances,
Overdraft Advances and Balance Transfers. Each type of charge will have its
own Balance. Each type of Balance may have a separate DPR and corresponding
Interest Charges.
You agree to pay SunTrust for all credit extended on Your Account, plus any
Interest Charges, Other Charges and other fees and amounts properly charged
to Your Account. You agree to use Your Account only for legal transactions. It is
not SunTrust’s responsibility to make sure You only use Your Account for legal
transactions, and You will remain responsible to pay for any transactions whether
legal or not. SunTrust may decline authorization for any Internet gambling
transaction. SunTrust will not be liable if You engage in an illegal transaction.
The conditions under which Interest Charges and
transaction fees apply depend upon whether the transaction
is a Purchase, Cash Advance, Overdraft Advance, Balance
Transfer, or Promotional Offer.
SunTrust calculates Interest Charges using the Average Daily Balance (including
new transactions) method. SunTrust also uses compounded interest in calculating
Interest Charges. Compounded interest means that interest is added to the
principal that You owe and interest then applied each successive Billing Period on
the outstanding Balance and new charges.
Interest Charges that apply on Your Account are set forth in the Card Mailer.
Interest Charges
and Transaction
Fees

Interest Charge
Cost: Interest Charge (Average Daily Balance for
for Purchases
Purchases x no. days in Billing Period x DPR)
Any Purchase Balance not paid by the Due Date on the Statement will incur an
Interest Charge on the following month’s Statement. The cost for Purchases
(DPR Interest Charge, when it applies) is the Average Daily Balance on Purchases
multiplied by (1) the number of days in the Billing Period and (2) the applicable DPR.
You will have a Grace Period on any new Purchases that are reflected for the first
time on Your current Statement if You pay Your New Balance on time each Billing
Period. Those new Purchases will not be subject to an Interest Charge during the
Billing Period reflected in the current Statement if You satisfy the conditions for
applicability of the Grace Period.
SunTrust will charge the Interest Charge (unless inapplicable because of the
Grace Period) on Your Purchases from the transaction date.
The DPR for Purchases (that are subject to Interest Charges) may or may not
vary each month based on changes in the Index Rate. The Card Mailer discloses
whether the Account is subject to a Variable or a Non-variable APR.
Costs: Interest Charge (Average Daily Balance for Cash
Interest Charge
Advances x no. days in Billing Period x DPR) + Cash
and Transaction
Advance transaction fees.
Fees for Cash
Advances
The costs for Cash Advances consist of (1) interest computed at the applicable
DPR on the Average Daily Balance (for Cash Advances) and (2) Cash Advance
transaction fees.
The DPR Interest Charge is the Average Daily Balance on Cash Advances
multiplied by (1) the number of days in the Billing Period and (2) the applicable
DPR. The Cash Advance transaction fee is disclosed in the Card Mailer.
The DPR for Cash Advances may or may not vary each month based on changes
in the Index Rate. The Card Mailer discloses whether the Account is subject to a
Variable or a Non-variable APR.
SunTrust will charge the Interest Charge on Your Cash Advances from the date
they are posted to Your Account. Cash Advances do not have a Grace Period.
Cost: Interest Charge (Average Daily Balance for Overdraft
Interest Charge
Advances x no. days in Billing Period x DPR)
for Overdraft
Advances
The cost on Overdraft Advances (DPR Interest Charge) is the Average Daily
Balance on Overdraft Advances multiplied by (1) the number of days in the Billing
Period and (2) the applicable DPR. In accordance with its Rules and Regulations for
Deposit Accounts, SunTrust will assess You its usual deposit account fee for such
service, separately, and as part of Your deposit account fees.
The DPR for Overdraft Advances may or may not vary each month based on
changes in the Index Rate. The Card Mailer discloses whether the Account is
subject to a Variable or a Non-variable APR.
SunTrust will charge the Interest Charge on Your Overdraft Advances from the date
they are posted to Your Account. Overdraft Advances do not have a Grace Period.

Costs: Interest C
Interest Charge
Transfers x no.
and Transaction
Fees for Balance Transfer transac
Transfers
The costs for Balance Transfers consi
DPR on the Average Daily Balance (fo
Transfer transaction fees.
The DPR Interest Charge is the Avera
multiplied by (1) the number of days
DPR. The Balance Transfer transactio
‘Promotional Balance’ Balance Trans
that SunTrust may from time to time
Offers with different Balance Transfe
the Card Mailer terms. Those differen
in the Balance Transfer Promotional
Transfer fee to the ‘Balance Transfer
informs You when You make a Balanc
and Balance Transfer fee will be adde
Purchases or Cash Advances).
Unless SunTrust informs You otherwise
Period. When SunTrust provides You a
request form or when You request a Ba
Interest Charge on Your Balance Tran
The DPR for Balance Transfers (that
may not vary each month based on ch
discloses whether the Account is subj

Cost: Interest C
Interest Charge
Promotional Ba
for Promotional
Promotional Ra
Balances
SunTrust may from time to time offer
Purchases or Balance Transfers throu
Promotional Offer, the resulting Prom
terms of that specific Promotional Of
Balance program, any new or differen
Agreement (such as the APR, effectiv
detailed in the Promotional Offer.
The DPR Interest Charge is the Avera
multiplied by (1) the number of days in
The Promotional Rate will apply to th
Promotional Offer Termination Date
Termination Date, be eligible for ano
After the Termination Date, Your Pro
Purchases DPR, unless disclosed othe
for the Termination Date is a Delinqu
the DPR that applies to Your new and
Purchase DPR and corresponding APR
required by applicable law.

Minimum Interest Charge
If You incur Interest Charges in any B
will post to Your Account (such minim
Interest Charge” on Your Statement)
Period, the Minimum Interest Charge
the Card Mailer. SunTrust may allocat
various Balances in the manner that S

Foreign Currency Exchange for Non
All Purchase and Cash Advance trans
be converted to U.S. dollars under th
being charged to Your Account. (The
to convert currency is a rate the Card
of rates available in the wholesale cu
date (which rate may vary from the r
the government-mandated rate in eff
Conversion may occur on a date other
the transaction is posted to Your Stat
used. If a Credit transaction is proces
the original transaction, then the exc
than that of the original transaction.
If Your Account has a foreign currenc
Card Mailer and will be calculated af
converted from a foreign currency.

Other Charges
Late Payment Fee. Unless Your Acc
if SunTrust has not received at least
shown on a Statement, SunTrust wi
Balance based on the New Balance
Statement. The Late Payment fee i
Annual Fee. If Your Account has an a
and SunTrust will add the annual fee
fee is applicable to Your Account, S
annual fee in the manner required b
Credit availability under the Accoun
do not terminate the Account, the t

5 days for certain fees and
m Payment changes

ase is defined in the definitions
Agreement. A copy of the
online at www.suntrust.com/
-cards.

starts and You agree to these terms
or an Authorized User use(s) the
unTrust.

Purchases, Cash Advances,
ach type of charge will have its
a separate DPR and corresponding

ded on Your Account, plus any
es and amounts properly charged
nt only for legal transactions. It is
only use Your Account for legal
o pay for any transactions whether
on for any Internet gambling
engage in an illegal transaction.

ch Interest Charges and
pend upon whether the transaction
nce, Overdraft Advance, Balance
Offer.
Average Daily Balance (including
compounded interest in calculating
that interest is added to the
ed each successive Billing Period on

re set forth in the Card Mailer.

verage Daily Balance for
illing Period x DPR)
e on the Statement will incur an
ment. The cost for Purchases
erage Daily Balance on Purchases
ng Period and (2) the applicable DPR.
hases that are reflected for the first
ur New Balance on time each Billing
ct to an Interest Charge during the
ent if You satisfy the conditions for

ss inapplicable because of the
nsaction date.
erest Charges) may or may not
x Rate. The Card Mailer discloses
r a Non-variable APR.

Average Daily Balance for Cash
lling Period x DPR) + Cash
.

rest computed at the applicable
dvances) and (2) Cash Advance

Balance on Cash Advances
ing Period and (2) the applicable
losed in the Card Mailer.
ry each month based on changes
hether the Account is subject to a

our Cash Advances from the date
es do not have a Grace Period.

verage Daily Balance for Overdraft
lling Period x DPR)

Charge) is the Average Daily
(1) the number of days in the Billing
ce with its Rules and Regulations for
usual deposit account fee for such
t account fees.
not vary each month based on
scloses whether the Account is

ur Overdraft Advances from the date
vances do not have a Grace Period.

Costs: Interest Charge (Average Daily Balance for Balance
Interest Charge
Transfers x no. days in Billing Period x DPR) + Balance
and Transaction
Fees for Balance Transfer transaction fees.
Transfers
The costs for Balance Transfers consist of (1) interest computed at the applicable
DPR on the Average Daily Balance (for Balance Transfers) and (2) Balance
Transfer transaction fees.
The DPR Interest Charge is the Average Daily Balance on Balance Transfers
multiplied by (1) the number of days in the Billing Period and (2) the applicable
DPR. The Balance Transfer transaction fee for a ‘regular’ Balance Transfer or
‘Promotional Balance’ Balance Transfer is disclosed in the Card Mailer; provided,
that SunTrust may from time to time offer You Balance Transfer Promotional
Offers with different Balance Transfer Interest Charges and transaction fees than
the Card Mailer terms. Those different Interest Charges and fees will be disclosed
in the Balance Transfer Promotional Offer. SunTrust will add the Balance
Transfer fee to the ‘Balance Transfer’ Balance of Your Account, unless SunTrust
informs You when You make a Balance Transfer that the Balance Transfer amount
and Balance Transfer fee will be added to another category of Balance (e.g.,
Purchases or Cash Advances).
Unless SunTrust informs You otherwise, Balance Transfers do not have a Grace
Period. When SunTrust provides You a Balance Transfer check or Balance Transfer
request form or when You request a Balance Transfer, SunTrust will charge the
Interest Charge on Your Balance Transfer from the date it is posted to Your Account.
The DPR for Balance Transfers (that are subject to Interest Charges) may or
may not vary each month based on changes in the Index Rate. The Card Mailer
discloses whether the Account is subject to a Variable or a Non-variable APR.
Cost: Interest Charge (Average Daily Balance for
Interest Charge
Promotional Balances x no. days in Billing Period x
for Promotional
Promotional Rate DPR)
Balances
SunTrust may from time to time offer You a Promotional Rate on certain
Purchases or Balance Transfers through Promotional Offers. If You accept a
Promotional Offer, the resulting Promotional Balance will be subject to the
terms of that specific Promotional Offer and this Agreement. In each Promotional
Balance program, any new or different terms of the program not disclosed in this
Agreement (such as the APR, effective dates and other special terms) will be
detailed in the Promotional Offer.
The DPR Interest Charge is the Average Daily Balance on Promotional Balances
multiplied by (1) the number of days in the Billing Period and (2) the applicable DPR.
The Promotional Rate will apply to those Promotional Balances until the
Promotional Offer Termination Date. A Promotional Balance will not, after the
Termination Date, be eligible for another Promotional Rate.
After the Termination Date, Your Promotional Rate will change to Your regular
Purchases DPR, unless disclosed otherwise in the Promotional Offer. If the reason
for the Termination Date is a Delinquency Triggering Event, SunTrust will change
the DPR that applies to Your new and outstanding Promotional Balances to the
Purchase DPR and corresponding APR, after SunTrust provides You any notice
required by applicable law.
Minimum Interest Charge
If You incur Interest Charges in any Billing Period, a minimum Interest Charge
will post to Your Account (such minimum Interest Charge shown as the “Minimum
Interest Charge” on Your Statement). If You incur Interest Charges in any Billing
Period, the Minimum Interest Charge will be no less than the amount disclosed in
the Card Mailer. SunTrust may allocate the Minimum Interest Charge among Your
various Balances in the manner that SunTrust elects as permitted by applicable law.
Foreign Currency Exchange for Non-US Transactions
All Purchase and Cash Advance transactions processed in a foreign currency will
be converted to U.S. dollars under the regulations of the Card Association before
being charged to Your Account. (The exchange rate that the Card Association uses
to convert currency is a rate the Card Association selects either from the range
of rates available in the wholesale currency markets for the applicable processing
date (which rate may vary from the rate the Card Association itself receives) or
the government-mandated rate in effect on the applicable processing date.)
Conversion may occur on a date other than the date of the transaction or the date
the transaction is posted to Your Statement, which may affect the conversion rate
used. If a Credit transaction is processed and has a processing date different than
the original transaction, then the exchange rate of the Credit can be greater/less
than that of the original transaction.
If Your Account has a foreign currency transaction fee, it will be shown on Your
Card Mailer and will be calculated after each Purchase transaction has been
converted from a foreign currency.
Other Charges
Late Payment Fee. Unless Your Account is exempt from Late Payment fees,
if SunTrust has not received at least the Minimum Payment by its Due Date as
shown on a Statement, SunTrust will add a Late Payment fee to Your Purchase
Balance based on the New Balance outstanding as of the Closing Date for the
Statement. The Late Payment fee is stated on the Card Mailer.
Annual Fee. If Your Account has an annual fee, it will be shown on the Card Mailer,
and SunTrust will add the annual fee to Your Purchase Balance. If an annual
fee is applicable to Your Account, SunTrust will provide You with notice of that
annual fee in the manner required by law and explain how You may terminate
Credit availability under the Account to avoid paying any such annual fee. If You
do not terminate the Account, the terms disclosed will continue to apply.

Returned Payment Fee. Unless You
Payment fees, SunTrust will add a R
Balance if (1) a payment that You m
unpaid (for example, if a check or an
returned for insufficient funds or is
be processed for any reason); or (2)
or Promotional Balance check is dis
be imposed even if Your payment is
financial institution. The Returned P
Stop Payment Fee. SunTrust will ad
Purchase Balance if You ask SunTru
Check drawn on Your Account or on
Documentation Fee. SunTrust will p
If You request copies of more than tw
will add a fee to Your Purchase Bala
unless prohibited by applicable law.
request is made in connection with w

Overdraft Protection
If You elect to link Your SunTrust elig
Account or Money Market Savings Acco
overdraft protection (the “Protected
Your Credit Card Account (the “Prote
Account when checks, bill pay, or oth
Protected Account to be overdrawn i
Transfers will be made in $100 increm
Protected Account. These transfers s
that term is defined under Your Credi
interest rates for Cash Advances are d
Account Agreement and may be highe
Card transactions. There is no Grace P
charges will accrue from the date the
Card Account. If the available Credit
Limit or the available Cash Advance l
overdraft, we may make transfers to p
accessible Credit on Your Credit Card
account has a Balance of $10.00 and a
presented for payment, which if paid
overdrawn, a transfer of $100 will be
Your deposit account and an overdraf
to this Account. We will also charge a
fee to Your Protected Account for ea
Personal Deposit Accounts Fee Schedu
Be advised that we reserve the right t
and to return the debit item(s) for non
we ordinarily will not initiate an overd
Advance under the following circumst
Credit Card Account Agreement; (ii)
exceed the available Credit for a give
closed or blocked status (e.g. due to f
payment by its Due Date; and/or (v) i
Credit Card Account. In these instanc
each debited item will be charged to
the Personal Deposit Accounts Fee Sch
Overdraft protection is only available
advised that linking a deposit account
activate that Card. Conversely, cance
Credit Card.
A Cash Advance transfer to the Prote
will not activate Your Credit Card. Ca
close Your Credit Card. However, clos
overdraft protection service.
Payments

What You Pay, When, How, and wha
SunTrust will send Your Statement to
You. You agree to pay all Authorized
option of paying in full the New Balan
installments that at least equal the am
Your Statement.
In either case, the payment Due Date
Date. The Minimum Payment will incl
Limit plus the greater of (1) $25.00, (
New Balance plus current Interest Ch
Payment amount will either be round
New Balance is less than $25.00, the
If You pay more than the Minimum Pa
Payment on subsequent Statements u
You must pay in U.S. dollars, without
Standard Payment Instructions. You
days before an automated payment is
the amount You think is wrong.
If You do not pay at least the Minimum
charge a Late Payment fee, unless Yo
fees. If You make a Late Payment, Yo

verage Daily Balance for Balance
ling Period x DPR) + Balance

nterest computed at the applicable
e Transfers) and (2) Balance

Balance on Balance Transfers
ing Period and (2) the applicable
a ‘regular’ Balance Transfer or
closed in the Card Mailer; provided,
Balance Transfer Promotional
t Charges and transaction fees than
t Charges and fees will be disclosed
nTrust will add the Balance
of Your Account, unless SunTrust
r that the Balance Transfer amount
her category of Balance (e.g.,

Transfers do not have a Grace
Transfer check or Balance Transfer
nsfer, SunTrust will charge the
the date it is posted to Your Account.
ct to Interest Charges) may or
he Index Rate. The Card Mailer
Variable or a Non-variable APR.

erage Daily Balance for
o. days in Billing Period x

omotional Rate on certain
otional Offers. If You accept a
Balance will be subject to the
his Agreement. In each Promotional
f the program not disclosed in this
nd other special terms) will be

alance on Promotional Balances
g Period and (2) the applicable DPR.
motional Balances until the
tional Balance will not, after the
motional Rate.
Rate will change to Your regular
he Promotional Offer. If the reason
ggering Event, SunTrust will change
ing Promotional Balances to the
nTrust provides You any notice

od, a minimum Interest Charge
est Charge shown as the “Minimum
cur Interest Charges in any Billing
o less than the amount disclosed in
imum Interest Charge among Your
lects as permitted by applicable law.

sactions
ocessed in a foreign currency will
ons of the Card Association before
rate that the Card Association uses
ion selects either from the range
rkets for the applicable processing
ard Association itself receives) or
e applicable processing date.)
date of the transaction or the date
which may affect the conversion rate
as a processing date different than
e of the Credit can be greater/less

ion fee, it will be shown on Your
urchase transaction has been

empt from Late Payment fees,
mum Payment by its Due Date as
ate Payment fee to Your Purchase
ng as of the Closing Date for the
n the Card Mailer.
it will be shown on the Card Mailer,
Purchase Balance. If an annual
ill provide You with notice of that
explain how You may terminate
paying any such annual fee. If You
osed will continue to apply.

Returned Payment Fee. Unless Your Account is exempt from Returned
Payment fees, SunTrust will add a Returned Payment fee to Your Purchase
Balance if (1) a payment that You make or authorize is returned to SunTrust
unpaid (for example, if a check or an electronic funds transfer to SunTrust is
returned for insufficient funds or is returned because it is not signed or cannot
be processed for any reason); or (2) any Balance Transfer, Cash Advance,
or Promotional Balance check is dishonored for any reason. This fee may
be imposed even if Your payment is later re-presented to and paid by Your
financial institution. The Returned Payment fee is stated on the Card Mailer.
Stop Payment Fee. SunTrust will add a $39.00 stop payment fee to Your
Purchase Balance if You ask SunTrust to stop payment on any Convenience
Check drawn on Your Account or on any Balance Transfer request.
Documentation Fee. SunTrust will provide copies of Items to You upon request.
If You request copies of more than two Items during a Billing Period, SunTrust
will add a fee to Your Purchase Balance up to $5.00 for each additional copy
unless prohibited by applicable law. SunTrust will not impose any fee if Your
request is made in connection with written notice of a billing error.
Overdraft Protection
If You elect to link Your SunTrust eligible Consumer Checking Account, Savings
Account or Money Market Savings Account to this SunTrust Credit Card for
overdraft protection (the “Protected Account”), funds will be transferred from
Your Credit Card Account (the “Protector Account”) into Your Protected
Account when checks, bill pay, or other debit transactions would cause Your
Protected Account to be overdrawn if those transactions are paid.
Transfers will be made in $100 increments from the Protector Account to Your
Protected Account. These transfers shall be considered a “Cash Advance” as
that term is defined under Your Credit Card Account Agreement. Fees and
interest rates for Cash Advances are disclosed to clients in their Credit Card
Account Agreement and may be higher than those associated with other Credit
Card transactions. There is no Grace Period for Cash Advances, meaning finance
charges will accrue from the date the Cash Advance is posted to Your Credit
Card Account. If the available Credit on Your Credit Card Account (i.e. Credit
Limit or the available Cash Advance limit) is insufficient to cover the entire
overdraft, we may make transfers to pay individual debit Items up to the available
accessible Credit on Your Credit Card Account. For example, if Your deposit
account has a Balance of $10.00 and a check or other debit item for $80.00 is
presented for payment, which if paid would cause Your deposit account to be
overdrawn, a transfer of $100 will be made from Your Credit Card Account to
Your deposit account and an overdraft protection Cash Advance of $100 will post
to this Account. We will also charge an additional Overdraft Protection transfer
fee to Your Protected Account for each day a transfer is made, as disclosed in the
Personal Deposit Accounts Fee Schedule.
Be advised that we reserve the right to not initiate transfers to cover overdrafts
and to return the debit item(s) for non-sufficient funds. By way of example only,
we ordinarily will not initiate an overdraft transfer or advance funds as a Cash
Advance under the following circumstances: (i) if You are in Default under Your
Credit Card Account Agreement; (ii) if the Cash Advance would cause You to
exceed the available Credit for a given transaction; (iii) if Your Credit Card is in a
closed or blocked status (e.g. due to fraud); (iv) if You fail to make a Credit Card
payment by its Due Date; and/or (v) if You exceed any Credit Card limit on Your
Credit Card Account. In these instances, an overdraft or returned item fee for
each debited item will be charged to the Protected Account, which is disclosed in
the Personal Deposit Accounts Fee Schedule.
Overdraft protection is only available for active Credit Card Accounts, but be
advised that linking a deposit account to a Credit Card does not automatically
activate that Card. Conversely, cancelling overdraft protection will not cancel a
Credit Card.
A Cash Advance transfer to the Protected Account due to overdraft protection
will not activate Your Credit Card. Cancelling overdraft protection will not
close Your Credit Card. However, closing a Credit Card Account will cancel the
overdraft protection service.
Payments
What You Pay, When, How, and what happens if You pay late
SunTrust will send Your Statement to the address that the Bank has on file for
You. You agree to pay all Authorized Charges on the Statement. You have the
option of paying in full the New Balance shown on each Statement or paying in
installments that at least equal the amount of the Minimum Payment shown on
Your Statement.
In either case, the payment Due Date will be at least 25 days after the Closing
Date. The Minimum Payment will include any amount past due or over the Credit
Limit plus the greater of (1) $25.00, (2) 2% of the New Balance, or (3) 1% of the
New Balance plus current Interest Charges and Other Charges. The Minimum
Payment amount will either be rounded up or down to the nearest dollar. If the
New Balance is less than $25.00, the Minimum Payment will be the New Balance.
If You pay more than the Minimum Payment, You still must make the Minimum
Payment on subsequent Statements until You have fully paid what You owe.
You must pay in U.S. dollars, without restrictive terms, and in accordance with the
Standard Payment Instructions. You must contact SunTrust at least 3 business
days before an automated payment is scheduled, if You want to stop payment on
the amount You think is wrong.
If You do not pay at least the Minimum Payment by the Due Date, SunTrust will
charge a Late Payment fee, unless Your Account is exempt from Late Payment
fees. If You make a Late Payment, You will be in Default and You may be subject

to rate increases. If You are in Default
that the entire full Balance on Your Ac
immediately pay SunTrust the entire f
specifically addressed in the Arbitratio
liable to SunTrust for collection costs
attorneys’ fees and expenses of legal a
law. Where required by state law SunT
to remedy Your Default in accordance
a payment after the payment Due Dat
Limit does not waive SunTrust’s right
entire full Balance.

How SunTrust will apply payments
You agree that the Minimum Payment
order SunTrust selects in accordance w
Your Minimum Payments to Balances
excess of the Minimum Payment will g
the highest APR and any remaining po
order based on their APRs, unless Sun
different payment application method
similar program. Payments are normal
(the amount of Your unused Credit Lim
available Credit until SunTrust determ
returned for insufficient funds or for so

Amendment (Changes)
IMPORTANT NOTICE: In accordance w
change the APRs, Other Charges, and
This includes modifications, deletions
non-financial provisions (for example,
SunTrust’s enforcement rights or the r
will send You notice in the manner an
to online Agreement) and time requir
Your Account and/or this Agreement.
is available at https://www.suntrust.c
CreditCards. Changes to this Agreeme
date SunTrust specifies or provides an
provided in any change in terms notice
changes to this Agreement as of the d
of Your Account is not necessary for a
have the right to reject a change in te
manner and under the same terms and
in any change in terms notice. SunTru
to use the Account if You reject certa
applicable law and as described in any
provides.
Assignment Rights

SunTrust has the right to Assign its rig
and any amount You owe to SunTrust.
consent and without prior notice to me
the Agreement and Account shall aut
and assigns, including any entity that a
a merger with SunTrust. You do not ha
under this Agreement or the Account.
Additional Information

Your liability for unauthorized use o
To report a lost/stolen Card call: 866
lost/stolen Card. You must notify the
or unauthorized use of Your Card. This
You should regularly check Your State
Account to confirm that unauthorized
You may be liable for the unauthorized
Your Account occurs, You agree to coo
authorities in identifying the unauthor
for unauthorized use that occurs after
the loss, theft, or possible unauthorize
exceed $50 for each occurrence of los
applicable law or the requirements of
SunTrust at: Cardholder Services, P.O

Ownership of the Card
Your Card and any Convenience Check
SunTrust provides to You are SunTrust’
or SunTrust’s agent immediately upon d
destroy Your Card, other Credit instrum
cutting them in half and surrendering th
mailing them to SunTrust or dropping th

Credit Limits, Authorization, and Co
Unless Your Account type or SunTrust
You agree to not exceed the Credit Li
if You do, You agree to pay the over C
Minimum Payment. SunTrust may rais
discretion, as permitted by applicable
decreases that affect Your Credit Lim
request an increase to the Credit Limi
have a joint Account because one of Y
Account was opened and that individu

t is exempt from Returned
Payment fee to Your Purchase
thorize is returned to SunTrust
ic funds transfer to SunTrust is
because it is not signed or cannot
nce Transfer, Cash Advance,
for any reason. This fee may
presented to and paid by Your
fee is stated on the Card Mailer.
0 stop payment fee to Your
payment on any Convenience
nce Transfer request.
pies of Items to You upon request.
during a Billing Period, SunTrust
$5.00 for each additional copy
will not impose any fee if Your
tice of a billing error.

umer Checking Account, Savings
s SunTrust Credit Card for
), funds will be transferred from
ount”) into Your Protected
ransactions would cause Your
ansactions are paid.
the Protector Account to Your
nsidered a “Cash Advance” as
count Agreement. Fees and
to clients in their Credit Card
ose associated with other Credit
Cash Advances, meaning finance
ance is posted to Your Credit
redit Card Account (i.e. Credit
sufficient to cover the entire
dual debit Items up to the available
. For example, if Your deposit
other debit item for $80.00 is
use Your deposit account to be
m Your Credit Card Account to
on Cash Advance of $100 will post
nal Overdraft Protection transfer
ransfer is made, as disclosed in the

ate transfers to cover overdrafts
t funds. By way of example only,
sfer or advance funds as a Cash
if You are in Default under Your
h Advance would cause You to
tion; (iii) if Your Credit Card is in a
) if You fail to make a Credit Card
eed any Credit Card limit on Your
erdraft or returned item fee for
cted Account, which is disclosed in

Credit Card Accounts, but be
dit Card does not automatically
draft protection will not cancel a

unt due to overdraft protection
verdraft protection will not
dit Card Account will cancel the

s if You pay late
ess that the Bank has on file for
on the Statement. You have the
on each Statement or paying in
he Minimum Payment shown on

least 25 days after the Closing
mount past due or over the Credit
he New Balance, or (3) 1% of the
Other Charges. The Minimum
own to the nearest dollar. If the
Payment will be the New Balance.
ou still must make the Minimum
ave fully paid what You owe.
e terms, and in accordance with the
act SunTrust at least 3 business
d, if You want to stop payment on

nt by the Due Date, SunTrust will
nt is exempt from Late Payment
n Default and You may be subject

to rate increases. If You are in Default for any reason, SunTrust can require
that the entire full Balance on Your Account be immediately paid. If You do not
immediately pay SunTrust the entire full Balance due when required, except as
specifically addressed in the Arbitration Provision of this Agreement, You will be
liable to SunTrust for collection costs that SunTrust incurs, including reasonable
attorneys’ fees and expenses of legal actions to the extent permitted by applicable
law. Where required by state law SunTrust will provide You with notice and a right
to remedy Your Default in accordance with that law. SunTrust’s acceptance of
a payment after the payment Due Date or after You have exceeded Your Credit
Limit does not waive SunTrust’s right to require immediate payment of Your
entire full Balance.
How SunTrust will apply payments
You agree that the Minimum Payments on Your Account will be applied in the
order SunTrust selects in accordance with applicable law. SunTrust may allocate
Your Minimum Payments to Balances starting with the lowest APR. Payments in
excess of the Minimum Payment will generally be applied first to Balances with
the highest APR and any remaining portion to the other Balances in descending
order based on their APRs, unless SunTrust is required by applicable law to use a
different payment application method in connection with a deferred interest or
similar program. Payments are normally applied to restore Your available Credit
(the amount of Your unused Credit Limit). There may be a delay in restoring Your
available Credit until SunTrust determines whether a payment is likely to be
returned for insufficient funds or for some other reason.
Amendment (Changes)
IMPORTANT NOTICE: In accordance with applicable law, SunTrust may unilaterally
change the APRs, Other Charges, and other terms of this Agreement at any time.
This includes modifications, deletions and the addition of new provisions, including
non-financial provisions (for example, SunTrust may add provisions relating to
SunTrust’s enforcement rights or the resolution of claims and disputes). SunTrust
will send You notice in the manner and method (written communication or update
to online Agreement) and time required by law for the changes being made to
Your Account and/or this Agreement. The online version of the Agreement
is available at https://www.suntrust.com/PersonalBanking/EverydayBanking/
CreditCards. Changes to this Agreement will be automatically effective on the
date SunTrust specifies or provides an updated Agreement, except as otherwise
provided in any change in terms notice SunTrust provides. You are bound by
changes to this Agreement as of the date updates are published. However, use
of Your Account is not necessary for a change in terms to be effective. You will
have the right to reject a change in terms and pay off Your Account in the same
manner and under the same terms and conditions as then in effect, as described
in any change in terms notice. SunTrust may terminate or suspend Your ability
to use the Account if You reject certain changes, to the extent permitted by
applicable law and as described in any change in terms notice that SunTrust
provides.
Assignment Rights
SunTrust has the right to Assign its rights under this Agreement, the Account,
and any amount You owe to SunTrust. SunTrust may Assign its rights without my
consent and without prior notice to me. The rights and benefits of SunTrust under
the Agreement and Account shall automatically transfer to SunTrust’s successors
and assigns, including any entity that acquires SunTrust and/or is created through
a merger with SunTrust. You do not have the right to assign or transfer Your rights
under this Agreement or the Account.
Additional Information
Your liability for unauthorized use of the Card
To report a lost/stolen Card call: 866.732.1683. State that You are reporting a
lost/stolen Card. You must notify the Bank promptly in the event of loss, theft,
or unauthorized use of Your Card. This notification responsibility means that
You should regularly check Your Statements to review charges that post to Your
Account to confirm that unauthorized charges have not posted to Your Account.
You may be liable for the unauthorized use of Your Card. If unauthorized use of
Your Account occurs, You agree to cooperate with SunTrust and law enforcement
authorities in identifying the unauthorized user. However, You will not be liable
for unauthorized use that occurs after You notify SunTrust orally or in writing of
the loss, theft, or possible unauthorized use. In any case, Your liability will not
exceed $50 for each occurrence of loss or theft or any lesser amount required by
applicable law or the requirements of the Card Association. You may write to
SunTrust at: Cardholder Services, P.O. Box 621569, Orlando, FL 32862-1569.
Ownership of the Card
Your Card and any Convenience Checks or other Credit instrument or device that
SunTrust provides to You are SunTrust’s property and must be returned to SunTrust
or SunTrust’s agent immediately upon demand. At SunTrust’s request You will
destroy Your Card, other Credit instruments or devices and/or special checks, by
cutting them in half and surrendering those items to SunTrust or SunTrust’s agent by
mailing them to SunTrust or dropping them off at SunTrust’s office.
Credit Limits, Authorization, and Convenience Checks
Unless Your Account type or SunTrust permits You to exceed Your Credit Limit,
You agree to not exceed the Credit Limit that SunTrust establishes for You, but
if You do, You agree to pay the over Credit Limit amount as part of Your next
Minimum Payment. SunTrust may raise or lower Your Credit Limit at SunTrust’s
discretion, as permitted by applicable law. SunTrust is not liable to You for
decreases that affect Your Credit Limit or spending limits. Each of You may
request an increase to the Credit Limit of a joint Account. If You were required to
have a joint Account because one of You was less than 21 years of age when Your
Account was opened and that individual remains less than 21 years of age when

SunTrust considers raising the Credit L
not increase the Credit Limit until all
liability for an increase to the Credit L
establish separate limits that restrict t
for Cash Advances or Balance Transfer
any transaction at any time. SunTrust
any transaction, regardless of SunTrus
are subject to approval based upon You
history and other factors. You may not
SunTrust may reject and return unpaid
any reason. You must pay SunTrust for
even if SunTrust were permitted to reje
unless the Convenience Check constit
to issue Convenience Checks or, upon
of Convenience Checks already issued
to place a stop payment on an unpaid C
the stop payment fee. You must provid
payee, and the number of the Conveni
is incorrect or if You do not afford Sun
Your request, SunTrust may not be abl
Check has been paid, SunTrust will no
payment request will remain valid for 6
before it expires if You want SunTrust
request after the initial 6 month period
SunTrust from any losses, expenses an
by SunTrust, for preventing or failing t

Individual Liability
You, as a Cardholder, are liable for all
whether obtained by You, another Car
Account. If there is more than one Car
is liable, jointly and severally, for all C
regardless of which of You obtains that

Termination
Either You or SunTrust may terminate
privileges under this Agreement at any
not try to make any Purchases or Bala
Advances or Overdraft Advances on Yo
have been terminated or suspended. H
remain in full force and effect until Yo

Applicable Law
Applicable Law. Except as expressly se
Agreement, this Agreement and the in
(including but not limited to the expor
by Federal law applicable to SunTrust
Federal law, the laws of the State of G
provisions and principles. If there is an
conditions of this Agreement and appl
will be considered changed to the exte
law. You agree that all terms of this Ag
of interest. SunTrust accepts this Agre

Military Lending Act
The Military Lending Act provides prote
Forces and their dependents (“Covered
apply to Covered Borrowers under the
more information about whether you a
section applies to you, please contact
Federal law provides important protec
their dependents relating to extension
of consumer credit to a member of the
may not exceed an Annual Percentage
applicable to the credit transaction or
insurance premiums; (2) fees for ancill
credit transaction; (3) any application
fees for specified credit transactions o
fee charged (other than certain partici
Oral Disclosures. In order to hear impo
payment information provided in this A
Applicability of Jury Trial Waiver, Class
The Jury Trial Waiver, Class Action Waiv
Note do not apply to Covered Borrower

Jury Trial Waiver
UNLESS YOU ARE A COVERED BORROWE
THE EXTENT PERMITTED BY APPLICABLE
TO ARBITRATION, YOU AND SUNTRUST
INTENTIONALLY AND IRREVOCABLY WAIV
RESPECT TO ANY LITIGATION ARISING O
ACCOUNT, ANY CREDIT TRANSACTION,
BETWEEN YOU AND SUNTRUST OR ANY
DIRECTORS, PARENTS, CONTROLLING P
SUCCESSORS AND ASSIGNS

reason, SunTrust can require
e immediately paid. If You do not
ce due when required, except as
on of this Agreement, You will be
Trust incurs, including reasonable
the extent permitted by applicable
provide You with notice and a right
t law. SunTrust’s acceptance of
r You have exceeded Your Credit
e immediate payment of Your

r Account will be applied in the
cable law. SunTrust may allocate
with the lowest APR. Payments in
be applied first to Balances with
he other Balances in descending
equired by applicable law to use a
ction with a deferred interest or
d to restore Your available Credit
re may be a delay in restoring Your
ther a payment is likely to be
r reason.

able law, SunTrust may unilaterally
rms of this Agreement at any time.
ddition of new provisions, including
may add provisions relating to
n of claims and disputes). SunTrust
(written communication or update
for the changes being made to
ne version of the Agreement
nalBanking/EverydayBanking/
e automatically effective on the
Agreement, except as otherwise
t provides. You are bound by
tes are published. However, use
n terms to be effective. You will
pay off Your Account in the same
ns as then in effect, as described
rminate or suspend Your ability
es, to the extent permitted by
n terms notice that SunTrust

r this Agreement, the Account,
t may Assign its rights without my
hts and benefits of SunTrust under
y transfer to SunTrust’s successors
SunTrust and/or is created through
ght to assign or transfer Your rights

rd
3. State that You are reporting a
mptly in the event of loss, theft,
tion responsibility means that
review charges that post to Your
have not posted to Your Account.
Your Card. If unauthorized use of
with SunTrust and law enforcement
However, You will not be liable
fy SunTrust orally or in writing of
any case, Your liability will not
or any lesser amount required by
Association. You may write to
1569, Orlando, FL 32862-1569.

r Credit instrument or device that
y and must be returned to SunTrust
At SunTrust’s request You will
devices and/or special checks, by
s to SunTrust or SunTrust’s agent by
t SunTrust’s office.

ce Checks
You to exceed Your Credit Limit,
SunTrust establishes for You, but
mit amount as part of Your next
er Your Credit Limit at SunTrust’s
Trust is not liable to You for
ding limits. Each of You may
nt Account. If You were required to
ess than 21 years of age when Your
ns less than 21 years of age when

SunTrust considers raising the Credit Limit of Your joint Account, SunTrust will
not increase the Credit Limit until all of You approve and assume in writing joint
liability for an increase to the Credit Limit of the joint Account. SunTrust may
establish separate limits that restrict the amount of the Credit Limit available
for Cash Advances or Balance Transfers. SunTrust may decline authorization for
any transaction at any time. SunTrust is not liable for declining authorization for
any transaction, regardless of SunTrust’s reason. All transactions on Your Account
are subject to approval based upon Your Account status, available Credit, credit
history and other factors. You may not stop the payment of any Card transaction
SunTrust may reject and return unpaid any Convenience Check that You write for
any reason. You must pay SunTrust for any Convenience Check that SunTrust pays,
even if SunTrust were permitted to reject and return the Convenience Check,
unless the Convenience Check constitutes unauthorized use. SunTrust may refuse
to issue Convenience Checks or, upon notice to You, refuse to permit the use
of Convenience Checks already issued. You may call SunTrust at 800.477.9702
to place a stop payment on an unpaid Convenience Check. SunTrust will charge
the stop payment fee. You must provide SunTrust the date, amount, name of
payee, and the number of the Convenience Check. If any information You provide
is incorrect or if You do not afford SunTrust a reasonable opportunity to act on
Your request, SunTrust may not be able to stop payment. Once a Convenience
Check has been paid, SunTrust will not be able to reverse the payment. Your stop
payment request will remain valid for 6 months. You must renew Your request
before it expires if You want SunTrust to continue honoring the stop payment
request after the initial 6 month period. You agree to hold harmless and indemnify
SunTrust from any losses, expenses and costs, including attorneys’ fees incurred
by SunTrust, for preventing or failing to prevent payment.
Individual Liability
You, as a Cardholder, are liable for all Credit obtained under Your Account(s),
whether obtained by You, another Cardholder or an Authorized User of the
Account. If there is more than one Cardholder on the Account, each of You
is liable, jointly and severally, for all Credit obtained under the Account(s),
regardless of which of You obtains that Credit or benefits from it.
Termination
Either You or SunTrust may terminate this Agreement or suspend Your Credit
privileges under this Agreement at any time, with or without cause. You will
not try to make any Purchases or Balance Transfers or try to obtain any Cash
Advances or Overdraft Advances on Your Account after Your Credit privileges
have been terminated or suspended. However, this Agreement will otherwise
remain in full force and effect until You pay all sums due SunTrust.
Applicable Law
Applicable Law. Except as expressly set forth in the Arbitration Provision of this
Agreement, this Agreement and the interpretation and enforcement thereof
(including but not limited to the exportation of interest rates) will be governed
by Federal law applicable to SunTrust and, to the extent not preempted by
Federal law, the laws of the State of Georgia without regard to its conflicts of law
provisions and principles. If there is any conflict between any of the terms and
conditions of this Agreement and applicable Federal or State law, this Agreement
will be considered changed to the extent necessary to comply with the applicable
law. You agree that all terms of this Agreement are material to the determination
of interest. SunTrust accepts this Agreement in its home state, Georgia.
Military Lending Act
The Military Lending Act provides protections for certain members of the Armed
Forces and their dependents (“Covered Borrowers”). The provisions of this section
apply to Covered Borrowers under the Military Lending Act. If you would like
more information about whether you are a Covered Borrower and whether this
section applies to you, please contact us at 1-800-848-8372. Statement of MAPR.
Federal law provides important protections to members of the Armed Forces and
their dependents relating to extensions of consumer credit. In general, the cost
of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an Annual Percentage Rate of 36%. This rate must include, as
applicable to the credit transaction or account: (1) the costs associated with credit
insurance premiums; (2) fees for ancillary products sold in connection with the
credit transaction; (3) any application fee charged (other than certain application
fees for specified credit transactions or accounts); and (4) any participation
fee charged (other than certain participation fees for a credit card account).
Oral Disclosures. In order to hear important Military Lending Act disclosures and
payment information provided in this Agreement, please call 1-800-848-8372.
Applicability of Jury Trial Waiver, Class Action Waiver, and Arbitration Provision.
The Jury Trial Waiver, Class Action Waiver, and Arbitration Provision set forth in this
Note do not apply to Covered Borrowers under the Military Lending Act.
Jury Trial Waiver
UNLESS YOU ARE A COVERED BORROWER UNDER THE MILITARY LENDING ACT AND TO
THE EXTENT PERMITTED BY APPLICABLE LAW, FOR ANY MATTERS NOT SUBMITTED
TO ARBITRATION, YOU AND SUNTRUST HEREBY KNOWINGLY, VOLUNTARILY,
INTENTIONALLY AND IRREVOCABLY WAIVE THE RIGHT TO A TRIAL BY JURY IN
RESPECT TO ANY LITIGATION ARISING OUT OF THIS AGREEMENT, RELATING TO THE
ACCOUNT, ANY CREDIT TRANSACTION, OR ANY OTHER DISPUTE OR CONTROVERSY
BETWEEN YOU AND SUNTRUST OR ANY OF SUNTRUST’S EMPLOYEES, OFFICERS,
DIRECTORS, PARENTS, CONTROLLING PERSONS, SUBSIDIARIES, AFFILIATES,
SUCCESSORS AND ASSIGNS

Litigation Class Action Waiver
TO THE EXTENT PERMITTED BY APPLICA
TO ARBITRATION, YOU AND SUNTRUST
ARISING OUT OF THIS AGREEMENT, RE
TRANSACTION, OR ANY OTHER DISPUTE
SUNTRUST OR ANY OF SUNTRUST’S EM
CONTROLLING PERSONS, SUBSIDIARIES,
WILL PROCEED ON AN INDIVIDUAL BASIS
CLASS ACTION, COLLECTIVE ACTION, PR
OTHER REPRESENTATIVE ACTION AND Y
VOLUNTARILY, INTENTIONALLY AND IRRE
IN A CLASS ACTION, COLLECTIVE ACTIO
OTHER REPRESENTATIVE ACTION OR TO

Other Products and Services
SunTrust will, at Your request, arrange
additional or replacement Cards on an
overnight courier will be added to You

products, optional services or enhance
registration) may be offered on Your A
features, services and enhancements,
third party provider. You agree to hold
actions or damages resulting from You
enhancements, when permitted by app
adjust, add, or delete benefits and ser

Credit Inquiries
You authorize SunTrust to make or hav
investigative inquiries that SunTrust d
or collection of Credit under the Acco
SunTrust is reporting about You, You m
Attention: Dispute Department, P.O.

Consumer Reporting Agencies (Cred
It is standard banking industry practice
routinely to provide data about custom
consumer reporting agencies and other
about Your Account(s) to credit bureau
other Defaults on Your Account(s) may

Sharing of Information
SunTrust may, to the extent and in the
communicate information about SunTr
You to consumer reporting agencies, S
properly receive that information. You
for more details about how SunTrust c
safeguards information about You and
is provided when consumer Cardholde
SunTrust, once each year while Cardh
with SunTrust, and at other times requ
copy of SunTrust’s Privacy Statement b
or sending a written request to SunTru
Customer Service, P.O. Box 621629,

Waiver
SunTrust’s failure to exercise, or SunT
rights under the Agreement for any re
unable to exercise those rights later.

Severability
The invalidity of any provision of the A
other provision.

Entire Agreement
This Agreement, as modified from time
by any change in terms that SunTrust w
to Agreement terms that are published
credit-cards), constitutes the entire Agr
supersedes any prior negotiation or und
concerning the subject matter of this Ag
convenience only and are to be disregar

New Jersey Residents
All provisions of this Agreement are valid

Illegal Transaction
Any financial service that SunTrust pro
used for any transaction permitted by
agree that illegal use of any financial s
and/or breach of contract and that Su
service and/or other related services a
responsible for paying for a transaction
use occurs, You also agree to waive an
or any activity directly or indirectly re
harmless from any suits or other legal
resulting from such illegal use.

our joint Account, SunTrust will
prove and assume in writing joint
he joint Account. SunTrust may
nt of the Credit Limit available
ust may decline authorization for
ble for declining authorization for
n. All transactions on Your Account
nt status, available Credit, credit
payment of any Card transaction
venience Check that You write for
enience Check that SunTrust pays,
eturn the Convenience Check,
uthorized use. SunTrust may refuse
o You, refuse to permit the use
y call SunTrust at 800.477.9702
ence Check. SunTrust will charge
ust the date, amount, name of
eck. If any information You provide
easonable opportunity to act on
payment. Once a Convenience
to reverse the payment. Your stop
. You must renew Your request
nue honoring the stop payment
ree to hold harmless and indemnify
ncluding attorneys’ fees incurred
t payment.

btained under Your Account(s),
or an Authorized User of the
on the Account, each of You
ained under the Account(s),
or benefits from it.

ement or suspend Your Credit
ith or without cause. You will
sfers or try to obtain any Cash
unt after Your Credit privileges
this Agreement will otherwise
sums due SunTrust.

n the Arbitration Provision of this
tion and enforcement thereof
interest rates) will be governed
he extent not preempted by
thout regard to its conflicts of law
t between any of the terms and
deral or State law, this Agreement
sary to comply with the applicable
t are material to the determination
n its home state, Georgia.

r certain members of the Armed
ers”). The provisions of this section
Lending Act. If you would like
ered Borrower and whether this
00-848-8372. Statement of MAPR.
members of the Armed Forces and
umer credit. In general, the cost
orces and his or her dependent
36%. This rate must include, as
(1) the costs associated with credit
ucts sold in connection with the
ged (other than certain application
s); and (4) any participation
es for a credit card account).
tary Lending Act disclosures and
nt, please call 1-800-848-8372.
Waiver, and Arbitration Provision.
Arbitration Provision set forth in this
the Military Lending Act.

THE MILITARY LENDING ACT AND TO
OR ANY MATTERS NOT SUBMITTED
KNOWINGLY, VOLUNTARILY,
GHT TO A TRIAL BY JURY IN
HIS AGREEMENT, RELATING TO THE
OTHER DISPUTE OR CONTROVERSY
TRUST’S EMPLOYEES, OFFICERS,
SUBSIDIARIES, AFFILIATES,

Litigation Class Action Waiver
TO THE EXTENT PERMITTED BY APPLICABLE LAW, FOR ANY MATTERS NOT SUBMITTED
TO ARBITRATION, YOU AND SUNTRUST HEREBY AGREE THAT ANY LITIGATION
ARISING OUT OF THIS AGREEMENT, RELATING TO THE ACCOUNT, ANY CREDIT
TRANSACTION, OR ANY OTHER DISPUTE OR CONTROVERSY BETWEEN YOU AND
SUNTRUST OR ANY OF SUNTRUST’S EMPLOYEES, OFFICERS, DIRECTORS, PARENTS,
CONTROLLING PERSONS, SUBSIDIARIES, AFFILIATES, SUCCESSORS AND ASSIGNS
WILL PROCEED ON AN INDIVIDUAL BASIS AND WILL NOT PROCEED AS PART OF A
CLASS ACTION, COLLECTIVE ACTION, PRIVATE ATTORNEY GENERAL ACTION OR
OTHER REPRESENTATIVE ACTION AND YOU AND SUNTRUST HEREBY KNOWINGLY,
VOLUNTARILY, INTENTIONALLY AND IRREVOCABLY WAIVE ANY RIGHT TO PROCEED
IN A CLASS ACTION, COLLECTIVE ACTION, PRIVATE ATTORNEY GENERAL ACTION OR
OTHER REPRESENTATIVE ACTION OR TO SERVE AS A CLASS REPRESENTATIVE.
Other Products and Services
SunTrust will, at Your request, arrange for an overnight courier to deliver
additional or replacement Cards on an expedited basis. The charge assessed by the
overnight courier will be added to Your Account Balance. From time to time, new
products, optional services or enhancements (for example, insurance or Card
registration) may be offered on Your Account. SunTrust is not liable for these
features, services and enhancements, when they are the responsibility of a
third party provider. You agree to hold SunTrust harmless from any claims,
actions or damages resulting from Your use of any of these features, services or
enhancements, when permitted by applicable law. SunTrust reserves the right to
adjust, add, or delete benefits and services at any time.
Credit Inquiries
You authorize SunTrust to make or have made any credit, employment, and
investigative inquiries that SunTrust deems appropriate related to the extension
or collection of Credit under the Account. If You dispute credit information
SunTrust is reporting about You, You may notify SunTrust at Cardholder Services,
Attention: Dispute Department, P.O. Box 620548, Orlando, FL 32862-0548.
Consumer Reporting Agencies (Credit Bureaus)
It is standard banking industry practice and within federal and state law for SunTrust
routinely to provide data about customer loan repayment and transactions to
consumer reporting agencies and other creditors. SunTrust may report information
about Your Account(s) to credit bureaus. Late Payments, missed payments, or
other Defaults on Your Account(s) may be reflected in Your credit report.
Sharing of Information
SunTrust may, to the extent and in the manner permitted by applicable law,
communicate information about SunTrust’s experiences and transactions with
You to consumer reporting agencies, SunTrust’s affiliates, and others who may
properly receive that information. You may refer to SunTrust’s Privacy Statement
for more details about how SunTrust collects, uses, retains, discloses, and
safeguards information about You and Your Account. SunTrust’s Privacy Statement
is provided when consumer Cardholders establish a customer relationship with
SunTrust, once each year while Cardholders maintain a customer relationship
with SunTrust, and at other times required by law. You may request an additional
copy of SunTrust’s Privacy Statement by calling SunTrust at 866.732.1683
or sending a written request to SunTrust at Cardholder Services, Attention:
Customer Service, P.O. Box 621629, Orlando, FL 32862-1629.
Waiver
SunTrust’s failure to exercise, or SunTrust’s delay in exercising, any of SunTrust’s
rights under the Agreement for any reason will not mean that SunTrust will be
unable to exercise those rights later.
Severability
The invalidity of any provision of the Agreement will not affect the validity of any
other provision.
Entire Agreement
This Agreement, as modified from time to time in accordance with applicable law
by any change in terms that SunTrust will deliver to You (in writing or via update
to Agreement terms that are published at www.suntrust.com/personal-banking/
credit-cards), constitutes the entire Agreement between You and SunTrust, and
supersedes any prior negotiation or understanding between You and SunTrust
concerning the subject matter of this Agreement. Section headings are for
convenience only and are to be disregarded when interpreting this Agreement.
New Jersey Residents
All provisions of this Agreement are valid, enforceable and applicable in New Jersey.
Illegal Transaction
Any financial service that SunTrust provides pursuant to this Agreement may be
used for any transaction permitted by law in accordance with this Agreement. You
agree that illegal use of any financial service will be deemed an action of Default
and/or breach of contract and that SunTrust may terminate any such financial
service and/or other related services at SunTrust’s discretion. You will remain
responsible for paying for a transaction, even if it is not permissible. If any illegal
use occurs, You also agree to waive any right to sue SunTrust for such illegal use
or any activity directly or indirectly related to it and indemnify and hold SunTrust
harmless from any suits or other legal action or liability, directly or indirectly,
resulting from such illegal use.

Emergency Card Replacement and Cash Disbursement
You and any Authorized User agree and authorize SunTrust to provide Your
personal data to the Card Association, its members, or their respective
contractors for the purpose of providing Emergency Card Replacement and
Emergency Cash Disbursement benefits to You on Your Account.
Arbitration Provision
READ THIS PROVISION CAREFULLY AS IT WILL HAVE A SUBSTANTIAL IMPACT ON HOW
DISPUTES AND CLAIMS YOU AND WE HAVE AGAINST EACH OTHER ARE RESOLVED.
YOU HAVE THE RIGHT TO REJECT THIS ARBITRATION AGREEMENT AS SET FORTH
BELOW. If You do not reject this arbitration agreement, for a Claim subject to
arbitration, neither You nor we will have the right to: (1) have a court or a jury
decide the Claim; (2) engage in information-gathering (discovery) to the same
extent as in court; (3) participate in a class action in court or in arbitration; or (4)
join or consolidate a Claim with claims of any other person. The right to appeal
is more limited in arbitration than in court and other rights in court may be
unavailable or limited in arbitration.
Claims Subject to Arbitration. A “Claim” subject to arbitration is any claim, dispute
or controversy between You and us (other than an Excluded Claim or Proceeding
as set forth below), whether preexisting, present or future, which arises out of or
relates to the Account, these rules and regulations, any transaction conducted with
us in connection with the Account or these rules and regulations, or our relationship.
“Claim” has the broadest possible meaning and includes initial claims, counterclaims,
cross-claims, third- party claims and federal, state, local and administrative claims.
It includes disputes based upon contract, tort, consumer rights, fraud and other
intentional torts, constitution, statute, regulation, ordinance, common law and equity
and includes claims for money damages and injunctive or declaratory relief. “Claim”
also includes disputes concerning communications involving telephones, cell phones,
automatic dialing systems, artificial or prerecorded voice messages, text messages,
emails or facsimile machines and alleged violations of the Telephone Consumer
Protection Act and other statutes or regulations involving telemarketing. Upon the
demand of You or us, Claim(s) will be resolved by individual (not class or classwide) binding arbitration in accordance with the terms specified in this arbitration
agreement.
Special Definition of “We,” “Us” and “Our.” Solely for purposes of this arbitration
agreement, the terms “we,” “us” and “our,” in addition to the meanings set forth in
these rules and regulations, also refer to SunTrust’s employees, officers, directors,
parents, controlling persons, subsidiaries, affiliates, successors and assigns. “We,” “us”
and “our” also apply to third parties if You assert a Claim against such third parties in
connection with a Claim You assert against us.
Excluded Claim or Proceeding. Notwithstanding the foregoing, “Claim” does not
include any dispute or controversy about the validity, enforceability, coverage or
scope of this arbitration agreement or any part thereof (including, without limitation,
the Class Action Waiver set forth below, this sentence, and/or the last sentence of
the Survival and Severability paragraph below); all such disputes or controversies are
for a court and not an arbitrator to decide. However, any dispute or controversy that
concerns the validity or enforceability of the rules and regulations as a whole is for
the arbitrator, not a court, to decide. In addition, the following claims or proceedings
will not be subject to this arbitration agreement: (1) any individual action brought
by You or us in small claims court or Your state’s equivalent court, unless such action
is transferred, removed, or appealed to a different court; (2) the exercising of any
self-help rights, including set-off as described in the paragraph below titled “Right of
Offset and Security Interest,” or (3) any individual action in court by one party that
is limited to preventing the other party from using a self- help remedy and that does
not involve a request for damages or monetary relief of any kind. The institution and/
or maintenance of any such right, action or litigation shall not constitute a waiver of
the right of either of the parties to compel arbitration regarding any other dispute
subject to arbitration pursuant to this arbitration agreement. Moreover, this arbitration
agreement will not apply to any Claims that are the subject of (a) a class action
filed in court that is pending as of the effective date of this arbitration agreement
in which You are alleged to be a member of the putative class (however, You and we
will continue to be bound by any prior version of this arbitration agreement), or (b)
a motion to compel arbitration filed by us against You before the effective date of
this arbitration agreement pursuant to a prior version of this arbitration agreement
(however, You and we will continue to be bound by any prior version of this arbitration
agreement).
Federal Arbitration Act. Notwithstanding any choice of law or other provision in
these rules and regulations, the parties agree and acknowledge that this agreement
evidences a transaction involving interstate commerce and that the Federal Arbitration
Act (Title 9 of the United States Code) (“FAA”) shall govern its interpretation and
enforcement and proceedings pursuant thereto. To the extent state law is applicable
under the FAA, the law of the state governing Your account relationship with us shall
apply.
Arbitration Class Action Waiver. Notwithstanding any other provision of these rules
and regulations, if either You or we elect to arbitrate a Claim, neither You nor we will
have the right: (a) to participate in a class action, private attorney general action or
other representative action in court or in arbitration, either as a class representative
or class member; or (b) to join or consolidate Claims with claims of any other persons.
No arbitrator shall have authority to conduct any arbitration in violation of this
provision. (Provided, however, that the Class Action Waiver does not apply to any
lawsuit or administrative proceeding filed against us by a state or federal government
agency even when such agency is seeking relief on behalf of a class of borrowers
including You. This means that we will not have the right to compel arbitration of any
claim brought by such an agency).
Arbitration Procedures. If You or we elect to arbitrate a Claim, the electing party
must notify the other party in writing. This notice can be given after the beginning of a
lawsuit and can be given in papers filed in the lawsuit. Otherwise, Your notice must be

sent to SunTrust Bank Legal Departmen
Mail Code 0643, 303 Peachtree Street,
our notice must be sent to the most re
hearing that You attend must take plac
party files a lawsuit in court asserting C
other party files a motion to compel ar
be the responsibility of the party prose
proceeding with an arbitration adminis
agreement and the administrator’s rule
to litigate a Claim in court, You or we m
made by a new party or any Claim late
or unrelated lawsuit (including a Claim
modified to be asserted on a class, rep
litigation shall constitute a waiver of a
A single arbitrator will be appointed by
agree otherwise, must be a practicing
or a retired judge. The arbitrator will n
and evidence that would apply in a cou
arbitration provisions or proceedings. T
of limitation and claims of privilege rec
liability or awarding damages or other
substantive law, consistent with these
apply if the matter had been brought i
or other relief or remedies that would
action brought in court. For Claim(s) th
request, we will pay all filing, hearing
and arbitrator to You for Claim(s) asser
an amount equivalent to the fee, if any
court (whichever is less) in the judicial
paid a filing fee for asserting the Claim
that amount again. In addition, the adm
You can seek a waiver of fees charged
We will always pay any fees or expense
administrator’s rules or that we are req
to be enforced. The arbitrator will hav
witness fees and costs to the extent pe
the administrator’s rules or applicable
reasonable attorneys’ and expert witne
prevail on Claim(s) You assert against u
You, or (b) to the extent required unde
to be enforced. The arbitrator shall wr
decision. A judgment on the award may
Survival and Severability. This arbitra
Account and the termination of any rel
of these rules and regulations. If any p
or found to be unenforceable for any r
except that: (a) The parties to these ru
Action Waiver is material and essential
the parties and is non severable from t
Waiver is limited, voided or found unen
arbitration agreement (except for this
such Claim(s) (but not as to any other C
subject to the right to appeal the limit
The parties acknowledge and agree tha
arbitrated; and (b) If a Claim is brough
determines that the restrictions in the
elsewhere in this agreement prohibitin
of third parties are unenforceable with
becomes final after all appeals have be
relief will be determined in court and a
will be arbitrated. In such a case the p
for public injunctive relief until the arb
has been entered in court. In no event
arbitrated.
Effect of Arbitration Award. The arbit
parties, except for any right of appeal
the Claim exceeds $150,000 or involves
that could foreseeably involve a cost o
any party can, within thirty (30) days a
appeal the award to a three- arbitrator
panel shall reconsider anew any aspect
party. The decision of the panel shall b
provision to “the arbitrator” shall mea
decision has been taken. The costs of s
the above paragraph titled “Arbitration
panel is subject to judicial review only
award involving the parties will have a
dispute involving anyone who is not a p
award in prior disputes involving other
between the parties to this agreement
Notice and Cure; Special Payment. Pr
written Claim Notice describing the ba
accept in resolution of the Claim, and
(30) days, to resolve the Claim. Such a
mail, return receipt requested, at SunT
Counsel- Claim Notice, Mail Code 0643
Georgia 30308. This is the sole and onl
Notice. If (i) You submit a Claim Notice
behalf (and not on behalf of any other

bursement
orize SunTrust to provide Your
mbers, or their respective
gency Card Replacement and
on Your Account.

AVE A SUBSTANTIAL IMPACT ON HOW
NST EACH OTHER ARE RESOLVED.
TION AGREEMENT AS SET FORTH
reement, for a Claim subject to
ight to: (1) have a court or a jury
thering (discovery) to the same
ion in court or in arbitration; or (4)
other person. The right to appeal
other rights in court may be

t to arbitration is any claim, dispute
n Excluded Claim or Proceeding
t or future, which arises out of or
ns, any transaction conducted with
and regulations, or our relationship.
ncludes initial claims, counterclaims,
te, local and administrative claims.
onsumer rights, fraud and other
n, ordinance, common law and equity
nctive or declaratory relief. “Claim”
ns involving telephones, cell phones,
ed voice messages, text messages,
ons of the Telephone Consumer
nvolving telemarketing. Upon the
y individual (not class or classterms specified in this arbitration

olely for purposes of this arbitration
addition to the meanings set forth in
t’s employees, officers, directors,
es, successors and assigns. “We,” “us”
t a Claim against such third parties in

the foregoing, “Claim” does not
idity, enforceability, coverage or
hereof (including, without limitation,
ence, and/or the last sentence of
all such disputes or controversies are
ever, any dispute or controversy that
es and regulations as a whole is for
, the following claims or proceedings
: (1) any individual action brought
equivalent court, unless such action
ent court; (2) the exercising of any
the paragraph below titled “Right of
al action in court by one party that
ng a self- help remedy and that does
elief of any kind. The institution and/
ation shall not constitute a waiver of
ration regarding any other dispute
n agreement. Moreover, this arbitration
the subject of (a) a class action
date of this arbitration agreement
putative class (however, You and we
this arbitration agreement), or (b)
t You before the effective date of
rsion of this arbitration agreement
by any prior version of this arbitration

oice of law or other provision in
d acknowledge that this agreement
merce and that the Federal Arbitration
hall govern its interpretation and
To the extent state law is applicable
ur account relationship with us shall

g any other provision of these rules
trate a Claim, neither You nor we will
n, private attorney general action or
tion, either as a class representative
aims with claims of any other persons.
y arbitration in violation of this
ion Waiver does not apply to any
t us by a state or federal government
on behalf of a class of borrowers
the right to compel arbitration of any

bitrate a Claim, the electing party
e can be given after the beginning of a
wsuit. Otherwise, Your notice must be

sent to SunTrust Bank Legal Department, Attn: General Counsel- Arbitration Election,
Mail Code 0643, 303 Peachtree Street, N.E., 9th Floor, Atlanta, Georgia 30308, and
our notice must be sent to the most recent address for You in our files. Any arbitration
hearing that You attend must take place in a venue reasonably convenient to You. If a
party files a lawsuit in court asserting Claim(s) that are subject to arbitration and the
other party files a motion to compel arbitration with the court which is granted, it will
be the responsibility of the party prosecuting the Claim(s) to commence the arbitration
proceeding with an arbitration administrator in accordance with this arbitration
agreement and the administrator’s rules and procedures. Even if all parties have opted
to litigate a Claim in court, You or we may elect arbitration with respect to any Claim
made by a new party or any Claim later asserted by a party in that or any related
or unrelated lawsuit (including a Claim initially asserted on an individual basis but
modified to be asserted on a class, representative or multi-party basis). Nothing in that
litigation shall constitute a waiver of any rights under this arbitration agreement.
A single arbitrator will be appointed by the administrator and, unless You and us
agree otherwise, must be a practicing attorney with ten or more years of experience
or a retired judge. The arbitrator will not be bound by judicial rules of procedure
and evidence that would apply in a court, nor by state or local laws that relate to
arbitration provisions or proceedings. The arbitrator will honor and enforce statutes
of limitation and claims of privilege recognized under applicable law. In determining
liability or awarding damages or other relief, the arbitrator will follow the applicable
substantive law, consistent with these rules and regulations and the FAA, that would
apply if the matter had been brought in court. The arbitrator may award any damages
or other relief or remedies that would apply under applicable law to an individual
action brought in court. For Claim(s) that total less than $75,000 and at Your written
request, we will pay all filing, hearing and/or other fees charged by the administrator
and arbitrator to You for Claim(s) asserted by You in arbitration after You have paid
an amount equivalent to the fee, if any, for filing such Claim(s) in state or federal
court (whichever is less) in the judicial district in which You reside. If You have already
paid a filing fee for asserting the Claim(s) in court, You will not be required to pay
that amount again. In addition, the administrator may have a procedure whereby
You can seek a waiver of fees charged to You by the administrator and arbitrator.
We will always pay any fees or expenses that we are required to pay by law or the
administrator’s rules or that we are required to pay for this arbitration agreement
to be enforced. The arbitrator will have the authority to award attorneys and expert
witness fees and costs to the extent permitted by either these rules and regulations,
the administrator’s rules or applicable law. The arbitrator shall award You Your
reasonable attorneys’ and expert witness fees and costs (a) if and to the extent You
prevail on Claim(s) You assert against us in an individual arbitration commenced by
You, or (b) to the extent required under applicable law for this arbitration agreement
to be enforced. The arbitrator shall write a brief explanation of the grounds for the
decision. A judgment on the award may be entered by any court having jurisdiction.
Survival and Severability. This arbitration agreement shall survive the closing of Your
Account and the termination of any relationship between us, including the termination
of these rules and regulations. If any part of this arbitration agreement is deemed
or found to be unenforceable for any reason, the remainder shall be enforceable,
except that: (a) The parties to these rules and regulations acknowledge that the Class
Action Waiver is material and essential to the arbitration of any disputes between
the parties and is non severable from this arbitration agreement. If the Class Action
Waiver is limited, voided or found unenforceable as to any Claim(s), then the parties’
arbitration agreement (except for this sentence) shall be null and void with respect to
such Claim(s) (but not as to any other Claim(s) that have been or are later brought),
subject to the right to appeal the limitation or invalidation of the Class Action Waiver.
The parties acknowledge and agree that under no circumstances will a class action be
arbitrated; and (b) If a Claim is brought seeking public injunctive relief and a court
determines that the restrictions in the paragraph titled “Class Action Waiver” or
elsewhere in this agreement prohibiting the arbitrator from awarding relief on behalf
of third parties are unenforceable with respect to such Claim (and that determination
becomes final after all appeals have been exhausted), the Claim for public injunctive
relief will be determined in court and any individual Claims seeking monetary relief
will be arbitrated. In such a case the parties will request that the court stay the Claim
for public injunctive relief until the arbitration award pertaining to individual relief
has been entered in court. In no event will a Claim for public injunctive relief be
arbitrated.
Effect of Arbitration Award. The arbitrator’s award shall be final and binding on all
parties, except for any right of appeal provided by the FAA. However, if the amount of
the Claim exceeds $150,000 or involves a request for injunctive or declaratory relief
that could foreseeably involve a cost or benefit to either party exceeding $150,000,
any party can, within thirty (30) days after the entry of the award by the arbitrator,
appeal the award to a three- arbitrator panel administered by the Administrator. The
panel shall reconsider anew any aspect of the initial award requested by the appealing
party. The decision of the panel shall be by majority vote. Reference in this arbitration
provision to “the arbitrator” shall mean the panel if an appeal of the arbitrator’s
decision has been taken. The costs of such an appeal will be borne in accordance with
the above paragraph titled “Arbitration Procedures.” Any final decision of the appeal
panel is subject to judicial review only as provided under the FAA. No arbitration
award involving the parties will have any preclusive effect as to issues or claims in any
dispute involving anyone who is not a party to the arbitration, nor will an arbitration
award in prior disputes involving other parties have preclusive effect in an arbitration
between the parties to this agreement.
Notice and Cure; Special Payment. Prior to initiating a Claim, You may give us a
written Claim Notice describing the basis of Your Claim and the amount You would
accept in resolution of the Claim, and a reasonable opportunity, not less than thirty
(30) days, to resolve the Claim. Such a Claim Notice must be sent to us by certified
mail, return receipt requested, at SunTrust Bank Legal Department, Attn: General
Counsel- Claim Notice, Mail Code 0643, 303 Peachtree Street, N.E., 9th Floor, Atlanta,
Georgia 30308. This is the sole and only method by which You can submit a Claim
Notice. If (i) You submit a Claim Notice in accordance with this Paragraph on Your own
behalf (and not on behalf of any other party); (ii) You cooperate with us by promptly

providing the information we reasonabl
the relief You request; and (iv) the mat
arbitrator subsequently determines tha
relief), You will be entitled to a minimu
arbitration fees and attorneys’ fees and
encourage You to address all Claims You
arbitration. Accordingly, this $7,500 mi
all Claims You have asserted or could ha
awards of $7,500 are not contemplated
Right to Reject Arbitration Agreement
therefore not be subject to being requi
by arbitration. To reject this arbitration
send us written notice of Your decision
below within forty-five (45) days of the
include a statement that You wish to re
rules and regulations along with Your na
and Your signature and must be mailed
Arbitration Rejection, P.O. Box 4418, M
is the sole and only method by which Yo
any attempt to reject this arbitration a
other method or form of notice, includi
You agree that Your rejection of this arb
other person or entity or be deemed to
by any person or entity other than You.
agreement eliminate the obligation of o
arbitration agreement to personally com
this paragraph. Rejection of this arbitra
terms of these rules and regulations an
You or Your Account. You agree that our
with respect to whether You rejected t
fashion. This arbitration agreement pr
Account unless You reject it by provid

Your Billing Rights
Keep this notice for future use. It in
responsibilities under the Fair Credi

What to do if You find a mistake on
• If You think there is an error on You
◦ SunTrust Bank
Cardholder Services, P.O. Box 62
Attn: Dispute Department
• In Your letter, give SunTrust the fol
◦ Account information: Your nam
◦ Dollar amount: The amount of t
◦ Description of problem: If You t
describe what You believe is wr
• You must contact SunTrust:
◦ Within 60 days after the error ap
◦ At least 3 business days before a
want to stop payment on the am
• You must notify SunTrust of any pot
SunTrust, but SunTrust is not requir
You may have to pay the amount in
the suspected error.

eneral Counsel- Arbitration Election,
Floor, Atlanta, Georgia 30308, and
ess for You in our files. Any arbitration
ue reasonably convenient to You. If a
at are subject to arbitration and the
with the court which is granted, it will
Claim(s) to commence the arbitration
ccordance with this arbitration
cedures. Even if all parties have opted
arbitration with respect to any Claim
by a party in that or any related
sserted on an individual basis but
e or multi-party basis). Nothing in that
nder this arbitration agreement.
nistrator and, unless You and us
with ten or more years of experience
nd by judicial rules of procedure
state or local laws that relate to
tor will honor and enforce statutes
nder applicable law. In determining
arbitrator will follow the applicable
egulations and the FAA, that would
he arbitrator may award any damages
er applicable law to an individual
ss than $75,000 and at Your written
her fees charged by the administrator
in arbitration after You have paid
such Claim(s) in state or federal
which You reside. If You have already
t, You will not be required to pay
r may have a procedure whereby
he administrator and arbitrator.
are required to pay by law or the
ay for this arbitration agreement
ority to award attorneys and expert
y either these rules and regulations,
rbitrator shall award You Your
d costs (a) if and to the extent You
ividual arbitration commenced by
le law for this arbitration agreement
explanation of the grounds for the
ed by any court having jurisdiction.
ment shall survive the closing of Your
between us, including the termination
arbitration agreement is deemed
remainder shall be enforceable,
gulations acknowledge that the Class
bitration of any disputes between
tion agreement. If the Class Action
as to any Claim(s), then the parties’
shall be null and void with respect to
at have been or are later brought),
validation of the Class Action Waiver.
o circumstances will a class action be
public injunctive relief and a court
titled “Class Action Waiver” or
rator from awarding relief on behalf
o such Claim (and that determination
ted), the Claim for public injunctive
ual Claims seeking monetary relief
request that the court stay the Claim
ward pertaining to individual relief
m for public injunctive relief be

ard shall be final and binding on all
by the FAA. However, if the amount of
for injunctive or declaratory relief
o either party exceeding $150,000,
ntry of the award by the arbitrator,
ministered by the Administrator. The
tial award requested by the appealing
rity vote. Reference in this arbitration
l if an appeal of the arbitrator’s
peal will be borne in accordance with
es.” Any final decision of the appeal
ed under the FAA. No arbitration
ve effect as to issues or claims in any
e arbitration, nor will an arbitration
ve preclusive effect in an arbitration

ating a Claim, You may give us a
Claim and the amount You would
le opportunity, not less than thirty
ice must be sent to us by certified
Legal Department, Attn: General
htree Street, N.E., 9th Floor, Atlanta,
by which You can submit a Claim
ance with this Paragraph on Your own
You cooperate with us by promptly

providing the information we reasonably request; (iii) we refuse to provide You with
the relief You request; and (iv) the matter then proceeds to arbitration and the
arbitrator subsequently determines that You were entitled to such relief (or greater
relief), You will be entitled to a minimum award of at least $7,500 (not including any
arbitration fees and attorneys’ fees and costs to which You will also be entitled). We
encourage You to address all Claims You have in a single Claim Notice and/or a single
arbitration. Accordingly, this $7,500 minimum award is a single award that applies to
all Claims You have asserted or could have asserted in the arbitration, and multiple
awards of $7,500 are not contemplated.
Right to Reject Arbitration Agreement. You may reject this arbitration agreement and
therefore not be subject to being required to resolve any claim, dispute or controversy
by arbitration. To reject this arbitration agreement, You and only You personally, must
send us written notice of Your decision so that we receive it at the address listed
below within forty-five (45) days of the opening of Your Account. Such notice must
include a statement that You wish to reject the arbitration agreement section of these
rules and regulations along with Your name, address, Account name, Account number
and Your signature and must be mailed to the SunTrust Bank Legal Department, Attn:
Arbitration Rejection, P.O. Box 4418, Mail Code 0643, Atlanta, GA 30302-4418. This
is the sole and only method by which You can reject this arbitration agreement and
any attempt to reject this arbitration agreement by any other person or through any
other method or form of notice, including the filing of a lawsuit, will be ineffective.
You agree that Your rejection of this arbitration agreement shall not be imputed to any
other person or entity or be deemed to be a rejection of this arbitration agreement
by any person or entity other than You. Nor shall Your rejection of this arbitration
agreement eliminate the obligation of other persons or entities who wish to reject this
arbitration agreement to personally comply with the notice and time requirements of
this paragraph. Rejection of this arbitration agreement will not affect any remaining
terms of these rules and regulations and will not result in any adverse consequence to
You or Your Account. You agree that our business records will be final and conclusive
with respect to whether You rejected this arbitration agreement in a timely and proper
fashion. This arbitration agreement provision will apply to You and us and to Your
Account unless You reject it by providing proper and timely notice as stated herein.
Your Billing Rights
Keep this notice for future use. It informs You about Your rights and SunTrust’s
responsibilities under the Fair Credit Billing Act.
What to do if You find a mistake on Your Statement
• If You think there is an error on Your Statement, write SunTrust at:
◦ SunTrust Bank
Cardholder Services, P.O. Box 620548, Orlando, FL 32862-0548
Attn: Dispute Department
• In Your letter, give SunTrust the following information:
◦ Account information: Your name and Account number
◦ Dollar amount: The amount of the suspected error
◦ Description of problem: If You think there is an error on Your Statement,
describe what You believe is wrong and why You believe it is a mistake.
• You must contact SunTrust:
◦ Within 60 days after the error appeared on Your statement.
◦ At least 3 business days before an automated payment is scheduled, if You
want to stop payment on the amount You think is wrong.
• You must notify SunTrust of any potential errors in writing. You may also call
SunTrust, but SunTrust is not required to investigate any potential errors and
You may have to pay the amount in question unless You provide written notice of
the suspected error.

What will happen after SunTrust re
• When SunTrust receives Your letter,
◦ Within 30 days of receiving Your
SunTrust received Your letter; S
already corrected the error.
◦ Within 90 days after receiving Yo
error or explain to You why SunT
• While SunTrust investigates whether
◦ SunTrust may not (1) attempt to
You as delinquent on that amoun
◦ The charge in question may rem
continue to charge You interest
◦ While You do not have to pay the
the remainder of Your Balance;
◦ SunTrust may apply any unpaid a
• After SunTrust finishes the investiga
◦ If SunTrust made a mistake, You
or any interest or other fees rela
◦ If SunTrust does not believe the
the amount in question, along w
will send You a statement of the
due; and SunTrust may then rep
amount SunTrust states that You
• If You receive SunTrust’s explanatio
must write to SunTrust within 10 da
to pay. If You do so, SunTrust canno
reporting that You are questioning Y
of anyone to whom SunTrust reporte
those organizations know when the m
and You.
• If SunTrust does not follow all of the
first $50 of the amount You question

Your rights If You are dissatisfied w
• If You are dissatisfied with the goods
Card/Account, and You have tried in
merchant, You may have the right no
Purchase. To use this right, all of th
◦ The Purchase must have been m
of Your current mailing address,
more than $50. (Note: Neither o
was based on an advertisement S
the company that sold You the g
◦ You must have used Your Card f
advances from an ATM or with a
qualify.
◦ You must not yet have fully paid
• If all of the criteria above are met a
purchase, contact SunTrust in writin
◦ SunTrust Bank
Cardholder Services, P.O. Box 62
Attn: Dispute Department
While SunTrust investigates, the same
discussed above. After SunTrust finish
SunTrust’s decision. At that point, if S
do not pay, SunTrust may report You a

Definitions
Account – The credit card Account(s)
subject to the terms and conditions o
Agreement – Your Card Account Agree
contract is made up of these terms an
SunTrust’s solicitation, and the docum
(Card Mailer).
APR (Annual Percentage Rate) – The
APRs may apply to different Balances
Purchases or Your Balance on Cash Adv
to calculate the Interest Charge that Y
discloses applicable APRs and whether
Non-Variable APR.
Non-Variable APR – The DPR subjec
APR that does not vary with change
the APR for the Non-Variable Rate a
Variable APR –The variable APR wi
The Card Mailer discloses the APR
Index Rate may result in a higher M
Assign – SunTrust Assigns Your Account
transfers to another party any or all o
this Agreement, including any amount
SunTrust Assigns Your Account, the par
SunTrust’s rights under this Agreemen
Authorized Charges – Any Purchases,
Advances, and Promotional Balances t
Account and any fees and Interest Cha

(iii) we refuse to provide You with
roceeds to arbitration and the
entitled to such relief (or greater
of at least $7,500 (not including any
which You will also be entitled). We
single Claim Notice and/or a single
ard is a single award that applies to
ed in the arbitration, and multiple

reject this arbitration agreement and
olve any claim, dispute or controversy
nt, You and only You personally, must
receive it at the address listed
f Your Account. Such notice must
rbitration agreement section of these
ess, Account name, Account number
Trust Bank Legal Department, Attn:
643, Atlanta, GA 30302-4418. This
ect this arbitration agreement and
by any other person or through any
ng of a lawsuit, will be ineffective.
greement shall not be imputed to any
ction of this arbitration agreement
Your rejection of this arbitration
ons or entities who wish to reject this
the notice and time requirements of
ement will not affect any remaining
result in any adverse consequence to
records will be final and conclusive
tion agreement in a timely and proper
ill apply to You and us and to Your
r and timely notice as stated herein.

u about Your rights and SunTrust’s
Act.

tement
ent, write SunTrust at:

ando, FL 32862-0548

ormation:
ount number
ted error
is an error on Your Statement,
hy You believe it is a mistake.

n Your statement.
ted payment is scheduled, if You
think is wrong.
ors in writing. You may also call
estigate any potential errors and
unless You provide written notice of

What will happen after SunTrust receives Your letter
• When SunTrust receives Your letter, SunTrust must do two things:
◦ Within 30 days of receiving Your letter, SunTrust must inform You that
SunTrust received Your letter; SunTrust will also inform You if SunTrust has
already corrected the error.
◦ Within 90 days after receiving Your letter, SunTrust must either correct the
error or explain to You why SunTrust believes the bill is correct.
• While SunTrust investigates whether or not there has been an error:
◦ SunTrust may not (1) attempt to collect the amount in question or (2) report
You as delinquent on that amount;
◦ The charge in question may remain on Your Statement, and SunTrust may
continue to charge You interest on that amount;
◦ While You do not have to pay the amount in question, You are responsible for
the remainder of Your Balance; and
◦ SunTrust may apply any unpaid amount against Your Credit Limit.
• After SunTrust finishes the investigation, one of two things will happen:
◦ If SunTrust made a mistake, You will not have to pay the amount in question
or any interest or other fees related to that amount; or
◦ If SunTrust does not believe there was a mistake, You will have to pay
the amount in question, along with applicable interest and fees; SunTrust
will send You a statement of the amount You owe and the date payment is
due; and SunTrust may then report You as delinquent if You do not pay the
amount SunTrust states that You owe.
• If You receive SunTrust’s explanation but still believe Your bill is wrong, You
must write to SunTrust within 10 days telling SunTrust that You still refuse
to pay. If You do so, SunTrust cannot report You as delinquent without also
reporting that You are questioning Your bill. SunTrust must tell You the name
of anyone to whom SunTrust reported You as delinquent, and SunTrust must let
those organizations know when the matter has been settled between SunTrust
and You.
• If SunTrust does not follow all of the rules above, You do not have to pay the
first $50 of the amount You question even if Your bill is correct.
Your rights If You are dissatisfied with a Purchase
• If You are dissatisfied with the goods or services that You Purchase with Your
Card/Account, and You have tried in good faith to correct the problem with the
merchant, You may have the right not to pay the remaining amount due on the
Purchase. To use this right, all of the following must be true:
◦ The Purchase must have been made in Your home state or within 100 miles
of Your current mailing address, and the purchase price must have been
more than $50. (Note: Neither of these conditions applies if Your Purchase
was based on an advertisement SunTrust mailed to You, or if SunTrust owns
the company that sold You the goods or services.)
◦ You must have used Your Card for the Purchase. Purchases made with cash
advances from an ATM or with a check that accesses Your Account do not
qualify.
◦ You must not yet have fully paid for the Purchase.
• If all of the criteria above are met and You are still dissatisfied with the
purchase, contact SunTrust in writing at:
◦ SunTrust Bank
Cardholder Services, P.O. Box 620548, Orlando, FL 32862-0548
Attn: Dispute Department
While SunTrust investigates, the same rules apply to the disputed amount as
discussed above. After SunTrust finishes the investigation, SunTrust will tell You
SunTrust’s decision. At that point, if SunTrust thinks You owe an amount and You
do not pay, SunTrust may report You as delinquent.
Definitions
Account – The credit card Account(s) SunTrust approves for Your use that is/are
subject to the terms and conditions of this Agreement.
Agreement – Your Card Account Agreement with SunTrust for the Account, which
contract is made up of these terms and conditions, Your application or response to
SunTrust’s solicitation, and the documents that accompany delivery of Your Card
(Card Mailer).
APR (Annual Percentage Rate) – The cost of Your Credit as a yearly rate. Different
APRs may apply to different Balances on Your Account, such as Your Balance on
Purchases or Your Balance on Cash Advances. SunTrust uses the applicable APR
to calculate the Interest Charge that You owe on the Account. The Card Mailer
discloses applicable APRs and whether the Account is subject to a Variable or
Non-Variable APR.
Non-Variable APR – The DPR subject to the Non-Variable Rate will be based on an
APR that does not vary with changes in an Index Rate. The Card Mailer discloses
the APR for the Non-Variable Rate as of the date Your Account was opened.
Variable APR –The variable APR will be based on the Index Rate plus a Margin.
The Card Mailer discloses the APR for the Variable Rate. An increase in the
Index Rate may result in a higher Minimum Payment.
Assign – SunTrust Assigns Your Account and this Agreement if SunTrust sells or
transfers to another party any or all of SunTrust’s rights or obligations under
this Agreement, including any amount that You owe SunTrust on the Account. If
SunTrust Assigns Your Account, the party who receives the assignment will have
SunTrust’s rights under this Agreement, subject to the extent of the assignment.
Authorized Charges – Any Purchases, Balance Transfers, Cash Advances, Overdraft
Advances, and Promotional Balances that You or any Authorized User makes on the
Account and any fees and Interest Charges owing on the Account.

Authorized User – Any person You auth
or not and whether or not such use ex
Average Daily Balance – To get the Ave
outstanding Balance (including new tra
credits) for each transaction type for e
adds together all the daily Balances fo
divides by the number of days in the B
Balance – Every charge on the Account
Interest Charges and fees that SunTrus
such as the Balance on Purchases, Bala
Advances, and Promotional Balances. F
are assigned to the same Balance as th
cash advance fee on a Purchase is assi
are not specific to a given transaction
assigned to the Balance on Purchases.
Balance Transfer – Credit SunTrust ext
You request by any means (including te
Transfer request form that SunTrust pr
You to transfer any Balance You owe fr
SunTrust’s respective affiliates. SunTru
from other credit card companies or fi
the amount of Your Credit Limit. If You
not approve, SunTrust may process a p
amount that You requested or SunTrus
is not liable if SunTrust does not appro
or in part). Balance Transfer requests
be approved. SunTrust reserves the rig
SunTrust selects. In order to preserve
balances from other credit card compa
balances are in dispute. You should all
completed. You should continue to mo
the minimum payment due on those a
those creditors showing that the balan
may not happen until after the transac
sends You. You are solely responsible f
charges and disputed amounts on Your
accounts closed following a Balance Tr
Billing Period – The time interval betw
Statements. Your first Billing Period m
including Minimum Interest Charges, w
first Billing Period.
Card – Your Card is/are the physical Ca
(such as a check) that You or an Autho
Card Association – the applicable cred
Account is sponsored (e.g., Visa® or Ma
Cardholder – The natural person to wh
or application, or a natural person wh
another person’s use of the Card or Ac
Card Mailer – the mail that delivers You
terms associated with Your Card Accoun
Cash Advance – Credit SunTrust exten
Account. A Cash Advance occurs when
teller machine), (2) obtain cash from a
(4) buy foreign currency, (5) buy trave
lottery tickets, or (8) buy gambling ch
Cash Advance Credit Limit – The max
establishes from time to time and mak
Advances. Any Cash Advance Credit Lim
Credit Limit that otherwise applies to
is stated on the Card Mailer.
Cash Equivalent Transactions – Transa
service provider that Visa® or MasterCa
foreign currency, money orders, wire t
wagers or gambling, or similar product
as Cash Advances on Your Account.
Closing Date – The last day of a Billing
Convenience Check – A check that the
Your Account to make a Purchase or a
Covered Provider – means any third p
in connection with the Credit if (and o
party in connection with a Claim You a
Credit – means the credit extension Yo

our letter
t must do two things:
unTrust must inform You that
will also inform You if SunTrust has

, SunTrust must either correct the
eves the bill is correct.
here has been an error:
he amount in question or (2) report

ur Statement, and SunTrust may
mount;
in question, You are responsible for

gainst Your Credit Limit.
of two things will happen:
have to pay the amount in question
at amount; or
mistake, You will have to pay
able interest and fees; SunTrust
You owe and the date payment is
s delinquent if You do not pay the

believe Your bill is wrong, You
SunTrust that You still refuse
You as delinquent without also
SunTrust must tell You the name
delinquent, and SunTrust must let
s been settled between SunTrust

ove, You do not have to pay the
Your bill is correct.

chase
ces that You Purchase with Your
th to correct the problem with the
the remaining amount due on the
ng must be true:
our home state or within 100 miles
purchase price must have been
onditions applies if Your Purchase
mailed to You, or if SunTrust owns
ervices.)
rchase. Purchases made with cash
at accesses Your Account do not

Purchase.
e still dissatisfied with the

ando, FL 32862-0548

ply to the disputed amount as
estigation, SunTrust will tell You
thinks You owe an amount and You
uent.

approves for Your use that is/are
eement.
h SunTrust for the Account, which
ons, Your application or response to
accompany delivery of Your Card

our Credit as a yearly rate. Different
ccount, such as Your Balance on
unTrust uses the applicable APR
on the Account. The Card Mailer
ount is subject to a Variable or

Non-Variable Rate will be based on an
dex Rate. The Card Mailer discloses
date Your Account was opened.
d on the Index Rate plus a Margin.
ariable Rate. An increase in the
Payment.
Agreement if SunTrust sells or
t’s rights or obligations under
owe SunTrust on the Account. If
eceives the assignment will have
to the extent of the assignment.
Transfers, Cash Advances, Overdraft
r any Authorized User makes on the
ng on the Account.

Authorized User – Any person You authorize to use the Card (whether Cardholder
or not and whether or not such use exceeds the limit You authorized or intended).
Average Daily Balance – To get the Average Daily Balance, SunTrust adds the
outstanding Balance (including new transactions and deducting payments and
credits) for each transaction type for each day in the Billing Period; SunTrust
adds together all the daily Balances for each separate transaction type, and then
divides by the number of days in the Billing Period.
Balance – Every charge on the Account, including transactions that You make and
Interest Charges and fees that SunTrust assesses, falls into a specific Balance,
such as the Balance on Purchases, Balance Transfers, Cash Advances, Overdraft
Advances, and Promotional Balances. Fees that are based on a specific transaction
are assigned to the same Balance as the applicable transaction. For example, a
cash advance fee on a Purchase is assigned to the Balance on Purchases. Fees that
are not specific to a given transaction with the Card (like a Returned Payment) are
assigned to the Balance on Purchases.
Balance Transfer – Credit SunTrust extends resulting from a Balance Transfer that
You request by any means (including telephone, Convenience Check, or Balance
Transfer request form that SunTrust provides). SunTrust’s policy is not to allow
You to transfer any Balance You owe from any other account with SunTrust or
SunTrust’s respective affiliates. SunTrust may permit You to transfer balances
from other credit card companies or financial institutions to Your Account up to
the amount of Your Credit Limit. If You request an amount that SunTrust does
not approve, SunTrust may process a partial Balance Transfer for less than the
amount that You requested or SunTrust may decline the entire request. SunTrust
is not liable if SunTrust does not approve a requested Balance Transfer (in whole
or in part). Balance Transfer requests that are incomplete or illegible will not
be approved. SunTrust reserves the right to make Balance Transfers in the order
SunTrust selects. In order to preserve Your dispute rights, You should not transfer
balances from other credit card companies or financial institutions if those
balances are in dispute. You should allow up to 8 weeks for Balance Transfers to be
completed. You should continue to monitor the other accounts and continue to pay
the minimum payment due on those accounts until You receive statements from
those creditors showing that the balances have been paid in full. This confirmation
may not happen until after the transactions appear on the Statement SunTrust
sends You. You are solely responsible for any late payments, ongoing finance
charges and disputed amounts on Your other accounts. If You want Your other
accounts closed following a Balance Transfer, You are responsible for doing so.
Billing Period – The time interval between the dates of Your regular billing
Statements. Your first Billing Period may be less than one month. All Credit terms,
including Minimum Interest Charges, will apply in each Billing Period including the
first Billing Period.
Card – Your Card is/are the physical Card(s), the Account number, or any device
(such as a check) that You or an Authorized User can use to access Your Account.
Card Association – the applicable credit card association through which Your Card
Account is sponsored (e.g., Visa® or MasterCard®).
Cardholder – The natural person to whom SunTrust issues a Card at his/her request
or application, or a natural person who has agreed to pay obligations arising from
another person’s use of the Card or Account.
Card Mailer – the mail that delivers Your Card and includes Your Agreement and other
terms associated with Your Card Account when SunTrust sends Your Card to You.
Cash Advance – Credit SunTrust extends to You in the form of a loan from the
Account. A Cash Advance occurs when You: (1) obtain cash from an ATM (automated
teller machine), (2) obtain cash from any other source, (3) make a wire transfer,
(4) buy foreign currency, (5) buy traveler’s checks, (6) buy money orders, (7) buy
lottery tickets, or (8) buy gambling chips or wagers.
Cash Advance Credit Limit – The maximum amount of Credit that SunTrust
establishes from time to time and makes available to You on the Account for Cash
Advances. Any Cash Advance Credit Limit SunTrust establishes may be less than the
Credit Limit that otherwise applies to Your Account. The Cash Advance Credit Limit
is stated on the Card Mailer.
Cash Equivalent Transactions – Transactions performed using a merchant or
service provider that Visa® or MasterCard® identifies as a seller of travelers checks,
foreign currency, money orders, wire transfers, lottery tickets, funds used for
wagers or gambling, or similar products or services. These transactions are treated
as Cash Advances on Your Account.
Closing Date – The last day of a Billing Period.
Convenience Check – A check that the Bank provides which You may use to access
Your Account to make a Purchase or a Balance Transfer.
Covered Provider – means any third party that provides any product or service
in connection with the Credit if (and only if) You assert a Claim against such third
party in connection with a Claim You assert against SunTrust.
Credit – means the credit extension You receive under this Agreement.

Credit Limit – Your Credit Limit will ap
For Accounts with Spending Limits
SunTrust establishes from time to tim
For Accounts with no Pre-Set Spe
not mean unlimited spending. Your
Limit. SunTrust may restrict the am
Balance Transfers. For Cash Advanc
Cash Advance Credit Limit. For Purc
assigned Credit Limit. Each transac
such as (1) Your Account history; (2
suspected fraud; and (4) performan
to make a Purchase transaction th
will be evaluated based upon the
and Account usage, performance a
suspected fraud; and (4) performan
to make a Purchase transaction tha
will be evaluated based upon the l
and Account usage, performance a
with Your other creditors, and Your
SunTrust may ask for additional fin
If You are authorized to exceed You
as part of your Minimum Payment,
exceeds Your Credit Limit. SunTrus
forthcoming unusual activity, such
or changes in geographic patterns.
Default – Subject to applicable law and
law, SunTrust may require immediate p
and You will be in Default if (1) You do
on or before the payment Due Date, (2
or tries to exceed the Credit Limit with
You make is rejected or cannot be pro
that a Cardholder’s ability to pay SunTr
You become subject to bankruptcy or
or garnishment proceedings are institu
You provide SunTrust with false, mislea
signature, (6) a Cardholder dies or is le
(7) You fail to comply with any provisio
User makes illegal use of any financial
Authorized User continues to use an Ac
Delinquency Triggering Event – A Deli
make a Minimum Payment within 60 d
DPR (Daily Periodic Rate) – the daily p
applicable APR. The DPR is equal to th
leap year). SunTrust may use DPR to c
this Agreement. Interest Charges resul
daily and be calculated on the Average
for each Account feature (Purchases, C
Advances, and Promotional Balances).
Due Date – This is the date by which S
order for it to be on time. Your Due Da
occur on the same calendar day of eac
the date SunTrust mails Your Statemen
Your most recently concluded Billing P
must receive Your payment on or befo
Your Statement. If no time is stated on
if SunTrust receives it by 5:00 p.m. Ea
however, that if You make a payment
branch, Your payment will be credited
payment. Payments initiated through
with a customer service representativ
to the 5:00 p.m. payment cut-off time
Crediting of Payments to Account: Pay
p.m. Eastern Time at the mailing addr
and in the Standard Payment Instructi
the date of receipt. Payments that Su
Time will be credited as of the next d
to SunTrust personnel at a SunTrust br
SunTrust accepts a payment received
in Your Statement and in the Standard
coupon enclosed, or that does not con
that payment may be subject to a del
of receipt. This delay may result in ad
and possible suspension of Your Accoun
automated telephone service (if availa
subject to the 5:00 p.m. payment cut-

use the Card (whether Cardholder
e limit You authorized or intended).
ly Balance, SunTrust adds the
s and deducting payments and
in the Billing Period; SunTrust
eparate transaction type, and then
iod.
ng transactions that You make and
s, falls into a specific Balance,
sfers, Cash Advances, Overdraft
are based on a specific transaction
able transaction. For example, a
he Balance on Purchases. Fees that
Card (like a Returned Payment) are

ulting from a Balance Transfer that
, Convenience Check, or Balance
SunTrust’s policy is not to allow
other account with SunTrust or
ermit You to transfer balances
nstitutions to Your Account up to
an amount that SunTrust does
lance Transfer for less than the
cline the entire request. SunTrust
uested Balance Transfer (in whole
ncomplete or illegible will not
ke Balance Transfers in the order
ute rights, You should not transfer
financial institutions if those
8 weeks for Balance Transfers to be
other accounts and continue to pay
ntil You receive statements from
been paid in full. This confirmation
pear on the Statement SunTrust
te payments, ongoing finance
counts. If You want Your other
ou are responsible for doing so.
dates of Your regular billing
s than one month. All Credit terms,
in each Billing Period including the

e Account number, or any device
r can use to access Your Account.
ssociation through which Your Card
®
).
rust issues a Card at his/her request
eed to pay obligations arising from

d includes Your Agreement and other
unTrust sends Your Card to You.
in the form of a loan from the
obtain cash from an ATM (automated
source, (3) make a wire transfer,
cks, (6) buy money orders, (7) buy
gers.
ount of Credit that SunTrust
ble to You on the Account for Cash
ust establishes may be less than the
ount. The Cash Advance Credit Limit

erformed using a merchant or
tifies as a seller of travelers checks,
lottery tickets, funds used for
ices. These transactions are treated

ovides which You may use to access
Transfer.
provides any product or service
u assert a Claim against such third
inst SunTrust.
e under this Agreement.

Credit Limit – Your Credit Limit will appear on each monthly Statement.
For Accounts with Spending Limits: The maximum amount of Credit that
SunTrust establishes from time to time and makes available to You on the Account.
For Accounts with no Pre-Set Spending Limits: No pre-set spending limit does
not mean unlimited spending. Your Account will be assigned a revolving Credit
Limit. SunTrust may restrict the amount of Your Credit Limit that is available for
Balance Transfers. For Cash Advances, You may only spend up to Your assigned
Cash Advance Credit Limit. For Purchases, You may be authorized to exceed Your
assigned Credit Limit. Each transaction You make is authorized based on factors
such as (1) Your Account history; (2) credit record; (3) absence or presence of
suspected fraud; and (4) performance and delinquency patterns. If You attempt
to make a Purchase transaction that exceeds your Credit Limit, Your Account
will be evaluated based upon the length of time Your Account has been open
and Account usage, performance and delinquency patterns or presence of
suspected fraud; and (4) performance and delinquency patterns. If You attempt
to make a Purchase transaction that exceeds your Credit Limit, Your Account
will be evaluated based upon the length of time Your Account has been open
and Account usage, performance and delinquency patterns with SunTrust or
with Your other creditors, and Your ability to pay. In certain circumstances,
SunTrust may ask for additional financial records to authorize a transaction.
If You are authorized to exceed Your Credit Limit, You will be required to pay,
as part of your Minimum Payment, the amount by which Your New Balance
exceeds Your Credit Limit. SunTrust encourages You to provide us with notice of
forthcoming unusual activity, such as, high transaction amounts, high velocity,
or changes in geographic patterns.
Default – Subject to applicable law and any right that You may have under that
law, SunTrust may require immediate payment of Your entire Account Balance
and You will be in Default if (1) You do not make at least the Minimum Payment
on or before the payment Due Date, (2) a Cardholder or Authorized User exceeds
or tries to exceed the Credit Limit without SunTrust’s permission, (3) A payment
You make is rejected or cannot be processed, (4) SunTrust reasonably believes
that a Cardholder’s ability to pay SunTrust is materially impaired (for example, if
You become subject to bankruptcy or insolvency proceedings or if an attachment
or garnishment proceedings are instituted against You or Your property), (5)
You provide SunTrust with false, misleading or fraudulent information or a false
signature, (6) a Cardholder dies or is legally declared incompetent or incapacitated,
(7) You fail to comply with any provision of this Agreement, (8) You or an Authorized
User makes illegal use of any financial service under the Account or (9) You or an
Authorized User continues to use an Account or Card that has been closed.
Delinquency Triggering Event – A Delinquency Triggering Event occurs if You fail to
make a Minimum Payment within 60 days of its payment Due Date.
DPR (Daily Periodic Rate) – the daily periodic rate is calculated from the
applicable APR. The DPR is equal to the applicable APR divided by 365 (or 366 in a
leap year). SunTrust may use DPR to calculate the Interest Charge as described in
this Agreement. Interest Charges resulting from the application of DPRs will accrue
daily and be calculated on the Average Daily Balances (including new transactions)
for each Account feature (Purchases, Cash Advances, Balance Transfers, Overdraft
Advances, and Promotional Balances).
Due Date – This is the date by which SunTrust must receive Your payment in
order for it to be on time. Your Due Date will be stated on Your Statement. It will
occur on the same calendar day of each month. It will be at least 21 days after
the date SunTrust mails Your Statement and at least 25 days after the end of
Your most recently concluded Billing Period (Closing Date). To be timely, SunTrust
must receive Your payment on or before the Due Date and by the time stated on
Your Statement. If no time is stated on Your Statement, Your payment is timely
if SunTrust receives it by 5:00 p.m. Eastern Time on the Due Date; provided,
however, that if You make a payment directly to SunTrust personnel at a SunTrust
branch, Your payment will be credited to Your Account same day as the day of the
payment. Payments initiated through SunTrust’s automated telephone service,
with a customer service representative, or via SunTrust’s web site will be subject
to the 5:00 p.m. payment cut-off time.
Crediting of Payments to Account: Payments that SunTrust receives prior to 5:00
p.m. Eastern Time at the mailing address shown on the front of Your Statement
and in the Standard Payment Instructions will be credited to Your Account as of
the date of receipt. Payments that SunTrust receives after 5:00 p.m. Eastern
Time will be credited as of the next day, unless You make the payment directly
to SunTrust personnel at a SunTrust branch after 5:00 p.m., as stated above. If
SunTrust accepts a payment received at any other location than the address stated
in Your Statement and in the Standard Payment Instructions, with no payment
coupon enclosed, or that does not conform to the Standard Payment Instructions,
that payment may be subject to a delay in crediting of up to 5 days after the date
of receipt. This delay may result in additional Interest Charges, Other Charges,
and possible suspension of Your Account. Payments initiated through SunTrust’s
automated telephone service (if available) or via SunTrust’s web site will be
subject to the 5:00 p.m. payment cut-off time.

Grace Period – The time period during
certain transactions. As stated in the C
25 days after the close of each Billing
of transactions that are subject to a G
Transaction Fees Section). If a particu
Your Account starts in a Grace Period f
continue if You pay Your New Balance
Grace Period if You do not pay Your Ne
Your Grace Period after You lose it, Yo
Billing Period. If You lose Your Grace P
Period previously applied, You will owe
those transactions will begin to accrue
You failed to pay Your New Balance. Fo
You lose Your Grace Period, You will pa
the time that You regain the Grace Pe
Index Rate – The rate used for making
The Index Rate is the Prime Rate as qu
Wall Street Journal (Eastern Edition) o
business day, the next business day th
The Wall Street Journal (Eastern Editi
given on any of these dates, then the
immediately preceding published Prim
no longer available, SunTrust will choo
by applicable law. Index Rate changes
that commences on or after the first d
Index Rate is published. (For example,
28th, the new APR would be effective a
commences July 1 or after). An Index
APR, which may increase Your Minimum
Interest Charge – The cost of Your Cre
SunTrust derives by applying Your DPR
Items – Statements, sales drafts and/o
Joint Ownership Considerations – If a
is jointly owned, any owner of BOTH t
Account (i.e. the Protector Account)
the consent of the other owners of tha
of either the deposit Account OR Cred
protection without the consent of othe
Account is enrolled in overdraft prote
responsible for all overdraft protectio
a check or initiates a transaction that
Purchase); and (ii) all deposit Accoun
about the Protected Account with eac
of Account and partial Account numb
or change the terms or conditions of Y
time, for any reason.
Late Payment – A payment that You m
the Due Date.
Margin – The rate added to the Index R
Minimum Payment – The Minimum Pay
Statement.
New Balance – The entire Balance of P
Advances, Balance Transfers and any P
Account on the Closing Date, plus all a
as of such date.
Notice Address for Arbitration – mea
Arbitration Provision, the address tha
Provision. The initial Notice Address f
SunTrust’s files. The initial Notice Add
Department, Attention: General Coun
Street N.E., Suite 3600, Mail Code 064
SunTrust may give You notice at any ti
Notice Address.
Other Charges – Charges to Your Accou
of this Agreement, including fees for:
Payments*, Stop Payments*, Document
consider reversal of these Other Charg
circumstances warrant such considera
mitigating factors.
Overdraft Advance – Credit SunTrust e
Account to cover an overdraft on a de
You must enroll in the SunTrust overdr
of Credit.
Promotional Balance – Credit SunTrus
designated Purchase or Balance Transf
fees and/or a different DPR than your
Promotional Offer from SunTrust resul
Promotional Rate – The DPR applied t
Protected Account – An eligible SunTr
Account, or Money Market Savings Acc
Card for overdraft protection.
Protector Account – Your SunTrust Con
Purchase – Credit SunTrust extends to
use(s) the Card or Account to purchase
sellers and lessors that honor Your Car
a Purchase or (2) use(s) a Convenience
SunTrust provides for You to make a Pu

each monthly Statement.
ximum amount of Credit that
akes available to You on the Account.
mits: No pre-set spending limit does
will be assigned a revolving Credit
our Credit Limit that is available for
may only spend up to Your assigned
ou may be authorized to exceed Your
make is authorized based on factors
ecord; (3) absence or presence of
elinquency patterns. If You attempt
ds your Credit Limit, Your Account
time Your Account has been open
quency patterns or presence of
elinquency patterns. If You attempt
s your Credit Limit, Your Account
time Your Account has been open
uency patterns with SunTrust or
o pay. In certain circumstances,
cords to authorize a transaction.
Limit, You will be required to pay,
unt by which Your New Balance
ges You to provide us with notice of
ransaction amounts, high velocity,

t that You may have under that
of Your entire Account Balance
e at least the Minimum Payment
older or Authorized User exceeds
rust’s permission, (3) A payment
4) SunTrust reasonably believes
terially impaired (for example, if
y proceedings or if an attachment
st You or Your property), (5)
raudulent information or a false
lared incompetent or incapacitated,
Agreement, (8) You or an Authorized
nder the Account or (9) You or an
Card that has been closed.
Triggering Event occurs if You fail to
payment Due Date.
ate is calculated from the
ble APR divided by 365 (or 366 in a
he Interest Charge as described in
m the application of DPRs will accrue
lances (including new transactions)
ances, Balance Transfers, Overdraft

must receive Your payment in
e stated on Your Statement. It will
. It will be at least 21 days after
least 25 days after the end of
osing Date). To be timely, SunTrust
e Date and by the time stated on
tement, Your payment is timely
e on the Due Date; provided,
o SunTrust personnel at a SunTrust
Account same day as the day of the
s automated telephone service,
SunTrust’s web site will be subject

at SunTrust receives prior to 5:00
n on the front of Your Statement
e credited to Your Account as of
ceives after 5:00 p.m. Eastern
You make the payment directly
r 5:00 p.m., as stated above. If
her location than the address stated
Instructions, with no payment
he Standard Payment Instructions,
diting of up to 5 days after the date
nterest Charges, Other Charges,
ents initiated through SunTrust’s
ia SunTrust’s web site will be

Grace Period – The time period during which You may avoid paying interest on
certain transactions. As stated in the Card Mailer, the Grace Period is at least
25 days after the close of each Billing Period. This Agreement defines the kinds
of transactions that are subject to a Grace Period (See Interest Charges and
Transaction Fees Section). If a particular transaction is subject to a Grace Period,
Your Account starts in a Grace Period for that transaction. The Grace Period will
continue if You pay Your New Balance on time each Billing Period. You will lose the
Grace Period if You do not pay Your New Balance in a given Billing Period. To regain
Your Grace Period after You lose it, You must pay Your New Balance on time for 1
Billing Period. If You lose Your Grace Period for transactions to which the Grace
Period previously applied, You will owe interest on any unpaid Balance. Interest on
those transactions will begin to accrue from the end of the Billing Period for which
You failed to pay Your New Balance. For any such transactions that You make after
You lose Your Grace Period, You will pay interest from the Transaction Date until
the time that You regain the Grace Period for transactions of this type.
Index Rate – The rate used for making variable rate adjustments to Your APR.
The Index Rate is the Prime Rate as quoted in the “Money Rates” section of The
Wall Street Journal (Eastern Edition) on the 28th day (or if the 28th day is not a
business day, the next business day thereafter) of the prior calendar month. If
The Wall Street Journal (Eastern Edition) is not published or the Prime Rate is not
given on any of these dates, then the Index Rate will be determined by using the
immediately preceding published Prime Rate for such date. If the Prime Rate is
no longer available, SunTrust will choose a new index and notify You as required
by applicable law. Index Rate changes will be effective on Your Billing Period
that commences on or after the first day of the next succeeding month after the
Index Rate is published. (For example, if a new Index Rate is published on June
28th, the new APR would be effective as of the first day of the Billing Period that
commences July 1 or after). An Index Rate increase will increase the applicable
APR, which may increase Your Minimum Payment.
Interest Charge – The cost of Your Credit on the Account as a dollar amount that
SunTrust derives by applying Your DPR to the Average Daily Balance.
Items – Statements, sales drafts and/or payment instruments.
Joint Ownership Considerations – If a deposit Account (i.e. Protected Account)
is jointly owned, any owner of BOTH the deposit Account AND the Credit Card
Account (i.e. the Protector Account) may enroll in overdraft protection without
the consent of the other owners of that deposit Account. However, any owner
of either the deposit Account OR Credit Card Account may cancel overdraft
protection without the consent of other owners. If a jointly owned deposit
Account is enrolled in overdraft protection: (i) all deposit Account holders will be
responsible for all overdraft protection advances regardless of which person writes
a check or initiates a transaction that causes an overdraft (e.g. as a debit Card
Purchase); and (ii) all deposit Account holders authorize us to share information
about the Protected Account with each owner of Protector Account, such as type
of Account and partial Account number. We reserve the right to cancel, suspend,
or change the terms or conditions of Your overdraft protection service at any
time, for any reason.
Late Payment – A payment that You make that SunTrust does not receive before
the Due Date.
Margin – The rate added to the Index Rate to determine Your APR.
Minimum Payment – The Minimum Payment due on Your Account as shown on Your
Statement.
New Balance – The entire Balance of Purchases, Cash Advances, Overdraft
Advances, Balance Transfers and any Promotional Balances outstanding on Your
Account on the Closing Date, plus all accrued Interest Charges and Other Charges
as of such date.
Notice Address for Arbitration – means, except as otherwise specified in the
Arbitration Provision, the address that must be used for giving notices under the
Provision. The initial Notice Address for You is the latest address SunTrust has in
SunTrust’s files. The initial Notice Address for SunTrust is: SunTrust Bank Legal
Department, Attention: General Counsel – Arbitration Election, 303 Peachtree
Street N.E., Suite 3600, Mail Code 0643, Atlanta, Georgia 30308, although
SunTrust may give You notice at any time that SunTrust has changed SunTrust’s
Notice Address.
Other Charges – Charges to Your Account as described in the Other Charges Section
of this Agreement, including fees for: Late Payments*, Annual Fee, Returned
Payments*, Stop Payments*, Documentation*, and Phone Payments*. *SunTrust will
consider reversal of these Other Charges fees on open Accounts in good standing if
circumstances warrant such consideration, such as claims of Bank errors and other
mitigating factors.
Overdraft Advance – Credit SunTrust extends to You in the form of a loan from the
Account to cover an overdraft on a deposit account that You designate at SunTrust.
You must enroll in the SunTrust overdraft protection program to receive this form
of Credit.
Promotional Balance – Credit SunTrust extends for an introductory and other
designated Purchase or Balance Transfer transaction, subject to discounted
fees and/or a different DPR than your standard DPR for Purchases. Your use of a
Promotional Offer from SunTrust results in a Promotional Balance.
Promotional Rate – The DPR applied to Promotional Balances.
Protected Account – An eligible SunTrust Consumer Checking Account, Savings
Account, or Money Market Savings Account linked to this SunTrust Consumer Credit
Card for overdraft protection.
Protector Account – Your SunTrust Consumer Credit Card Account.
Purchase – Credit SunTrust extends to You when You or an Authorized User (1)
use(s) the Card or Account to purchase goods, labor, insurance or services through
sellers and lessors that honor Your Card or Account for the purpose of completing
a Purchase or (2) use(s) a Convenience Check or other Credit instrument that
SunTrust provides for You to make a Purchase.

Returned Payment – A payment that Y
does not honor. If You have a Returned
accordance with the terms of this Agre
Payment and Your financial institution
still assess a Returned Payment fee be
returned the payment as unpaid. If You
more than once, SunTrust will not char
You make a new payment to SunTrust,
not honor it, SunTrust will assess an ad
Standard Payment Instructions – Thes
Card bill as follows. Pay (1) in U.S. dol
of SunTrust’s branches, (3) from a U.S.
on a U.S. financial institution, (4) with
full”) included or attached to the paym
SunTrust provides You, such as a Conve
make payment in a paper form (like a
must include the payment coupon from
number on the payment. If SunTrust de
a form of payment that does not meet
SunTrust does not waive the Bank’s rig
comply with these instructions. If SunT
make in a foreign currency, SunTrust w
The date You mail the payment is diffe
payment. The payment date is the dat
accordance with these Standard Paym
these Standard Payment Instructions, c
be delayed. This delay may result in a
and possible suspension of Your Accoun
inquire about phone pay. Mailed paym
SunTrust Bank
Cardholder Services
P.O. Box 791278
Baltimore, MD 21279-1278
NOTE: Any disagreement that You may
Statement must be presented to SunTr
and to a different address than where
Billing Rights” Section of this Agreeme
Statement – SunTrust will send You a b
Account has a debit Balance of any am
$1, unless SunTrust has decided Your A
suspended Your Account for collection
tell You the total Balance that You owe
Period. It will also tell You the Minimu
the stated Due Date.
SunTrust – means (1) SunTrust Bank, th
include (2) any person(s) to whom the
Covered Provider; (4) the parents, con
of the companies in (1)-(3) above; (5)
companies in (1)-(4) above; and (6) th
companies in (1)-(5) above. SunTrust m
for purposes of the Arbitration Provisio
“SunTrust” shall also apply to any third
third parties in connection with a Claim
Termination Date – This is the last day
Promotional Balance. It will be the ear
Promotional Balance offer or (2) the d
Delinquency Triggering Event occurs.
Transaction Date – The Transaction
Transaction Date of a Balance Transf
the date that You request such a tra
You, Your and Yours – means the Card

u may avoid paying interest on
er, the Grace Period is at least
his Agreement defines the kinds
od (See Interest Charges and
ction is subject to a Grace Period,
ansaction. The Grace Period will
ach Billing Period. You will lose the
e in a given Billing Period. To regain
y Your New Balance on time for 1
transactions to which the Grace
on any unpaid Balance. Interest on
e end of the Billing Period for which
h transactions that You make after
t from the Transaction Date until
ansactions of this type.
rate adjustments to Your APR.
he “Money Rates” section of The
h
day (or if the 28th day is not a
of the prior calendar month. If
published or the Prime Rate is not
e will be determined by using the
r such date. If the Prime Rate is
index and notify You as required
ffective on Your Billing Period
next succeeding month after the
Index Rate is published on June
first day of the Billing Period that
ease will increase the applicable
t.
e Account as a dollar amount that
erage Daily Balance.
t instruments.
Account (i.e. Protected Account)
t Account AND the Credit Card
l in overdraft protection without
Account. However, any owner
ccount may cancel overdraft
. If a jointly owned deposit
all deposit Account holders will be
s regardless of which person writes
overdraft (e.g. as a debit Card
authorize us to share information
of Protector Account, such as type
erve the right to cancel, suspend,
draft protection service at any

SunTrust does not receive before

etermine Your APR.
e on Your Account as shown on Your

, Cash Advances, Overdraft
al Balances outstanding on Your
terest Charges and Other Charges

t as otherwise specified in the
used for giving notices under the
the latest address SunTrust has in
unTrust is: SunTrust Bank Legal
tration Election, 303 Peachtree
a, Georgia 30308, although
unTrust has changed SunTrust’s

Returned Payment – A payment that You make that Your financial institution
does not honor. If You have a Returned Payment, SunTrust will assess a fee in
accordance with the terms of this Agreement. If SunTrust resubmits a Returned
Payment and Your financial institution subsequently honors it, SunTrust will
still assess a Returned Payment fee because Your financial institution originally
returned the payment as unpaid. If Your financial institution returns a payment
more than once, SunTrust will not charge more than one Returned Payment fee. If
You make a new payment to SunTrust, however, and Your financial institution does
not honor it, SunTrust will assess an additional Returned Payment fee.
Standard Payment Instructions – These instructions require You to pay your credit
Card bill as follows. Pay (1) in U.S. dollars, (2) not in cash, unless You pay at one
of SunTrust’s branches, (3) from a U.S. deposit account or cashier’s check drawn
on a U.S. financial institution, (4) without restrictive language (e.g., “payment in
full”) included or attached to the payment, and (5) not from a credit account that
SunTrust provides You, such as a Convenience Check drawn on this Account. If You
make payment in a paper form (like a check, money order, or cashier’s check), You
must include the payment coupon from Your Statement or write Your Card Account
number on the payment. If SunTrust decides in the Bank’s discretion to accept
a form of payment that does not meet these Standard Payment Instructions,
SunTrust does not waive the Bank’s right to continue to require payments that
comply with these instructions. If SunTrust decides to accept a payment that You
make in a foreign currency, SunTrust will choose the conversion rate to apply.
The date You mail the payment is different from the date the Bank receives the
payment. The payment date is the date that the Bank receives Your payment in
accordance with these Standard Payment Instructions. If You fail to comply with
these Standard Payment Instructions, credit to Your Account for the payment may
be delayed. This delay may result in additional Interest Charges, Other Charges,
and possible suspension of Your Account. Contact SunTrust at 866.732.1683 to
inquire about phone pay. Mailed payments should be sent to:
SunTrust Bank
Cardholder Services
P.O. Box 791278
Baltimore, MD 21279-1278
NOTE: Any disagreement that You may have with respect to charges on Your
Statement must be presented to SunTrust in writing separately from your payment
and to a different address than where Your payments are sent. (See the “Your
Billing Rights” Section of this Agreement.)
Statement – SunTrust will send You a bill at the end of each Billing Period if Your
Account has a debit Balance of any amount or a credit Balance of more than
$1, unless SunTrust has decided Your Account is uncollectible or has closed or
suspended Your Account for collection proceedings against You. The Statement will
tell You the total Balance that You owe the Bank as of the end of the last Billing
Period. It will also tell You the Minimum Payment that You must pay the Bank by
the stated Due Date.
SunTrust – means (1) SunTrust Bank, the bank that is providing You Credit, and will
include (2) any person(s) to whom the Credit is transferred or assigned; (3) any
Covered Provider; (4) the parents, controlling persons, subsidiaries and affiliates
of the companies in (1)-(3) above; (5) the successors and predecessors of the
companies in (1)-(4) above; and (6) the officers, directors and employees of the
companies in (1)-(5) above. SunTrust may also be referred to as “the Bank.” Solely
for purposes of the Arbitration Provision contained in this Agreement, the term
“SunTrust” shall also apply to any third parties if You assert a Claim against such
third parties in connection with a Claim You assert against SunTrust.
Termination Date – This is the last day a Promotional Rate will apply to a
Promotional Balance. It will be the earlier of (1) the last day specified in the
Promotional Balance offer or (2) the date identified in any notice to You when a
Delinquency Triggering Event occurs.
Transaction Date – The Transaction Date of a Purchase is the sale date. The
Transaction Date of a Balance Transfer, Cash Advance, or Overdraft Advance is
the date that You request such a transaction.
You, Your and Yours – means the Cardholder(s).

cribed in the Other Charges Section
ments*, Annual Fee, Returned
nd Phone Payments*. *SunTrust will
n open Accounts in good standing if
as claims of Bank errors and other

You in the form of a loan from the
ount that You designate at SunTrust.
ction program to receive this form

for an introductory and other
ction, subject to discounted
DPR for Purchases. Your use of a
motional Balance.
onal Balances.
umer Checking Account, Savings
d to this SunTrust Consumer Credit

edit Card Account.
n You or an Authorized User (1)
abor, insurance or services through
unt for the purpose of completing
r other Credit instrument that

1
The Personal Deposit Account Fee Schedule is accessible at https://www.
suntrust.com/Static/Documents/Personal_Banking/Deposit_Account_Disclosures/
FSRETAILE.pdf.

1
The Personal Deposit Account Fee Sch
suntrust.com/Static/Documents/Perso
FSRETAILE.pdf.

SunTrust now Truist, Member FDIC. ©2020 Truist Financial Corporation. SunTrust®,
Truist and the SunTrust logo are service marks of Truist Financial Corporation.
All rights reserved.

SunTrust now Truist, Member FDIC. ©202
Truist and the SunTrust logo are service m
All rights reserved.

The pricing addendum for the SunTrust Cash Rewards Card is accurate as of June 30, 2021.
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

Prime Rate + 6.99% to Prime Rate + 17.99%

APR for Balance Transfers

Prime Rate + 6.99% to Prime Rate + 17.99%
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances
and Overdraft Advances

Prime Rate + 21.74%
This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month. We
will begin charging Interest on Cash Advances and Balance Transfers on the transaction
date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $0.50.

This APR will vary with the market based on the Prime Rate.

Fees
Annual Fee
Transaction Fees
Balance Transfer
• Cash Advance
• Foreign Transaction
Penalty Fees
• Late Payment
• Return Payment

None
$10.00 or 3% of the amount of the transfer, whichever is greater.
$10.00 or 4% of the amount of each advance, whichever is greater.
None
• Up to $39
• Up to $39

How We Will Calculate Your Balance: We use a method called “average daily balance” (including new transactions).
th

Prime Rate: We use the prime rate quoted in the “Money Rates” section of The Wall Street Journal on the 28 day (or if the
th
28 day is not a business day, the next business day thereafter) of the prior calendar month.

SunTrust Bank, now Truist Bank, Member FDIC. ©2020 Truist Financial Corporation. SunTrust®, the SunTrust logo, and Truist are service marks of Truist
Financial Corporation. All rights reserved.
18

